        INSPECTOR GENERAL
      DEPARTMENT OF DEFENSE




SEMIANNUAL REPORT TO THE CONGRESS



  October 1, 1999 through March 31, 2000
                                                 FOREWORD

It is my pleasure to report on the accomplishments of the Office of the Inspector General, Department of Defense,
for the period October 1, 1999, through March 31, 2000. This Semiannual Report summarizes significant
Department-wide audit and investigative efforts. Oversight projects relating to the intelligence community are
discussed in a separate classified annex.
The Highlights section provides an overview of the most significant issues discussed in the report. Chapter One
contains brief updates on what we consider to be the Department’s principal high-risk areas. We have also included
a more detailed discussion of a special emphasis area–Information Assurance. Chapter Two includes discussions of
other important audit and investigative efforts that took place during the period, again resulting in significant
criminal prosecutions and the identification of large dollar savings and recoveries.
Year 2000 conversion dominated our efforts during this reporting period culminating in an uneventful transition to
the new year. Although some system problems were noted, our comprehensive effort complemented Department
actions to ensure that no mission critical failures occurred. Responding to issues of critical interest to Congress and
the Department contributed toward making this an especially busy reporting period. We testified before the Senate
regarding the personnel security investigations backlog and export control issues and before the House regarding
the top 10 principal management challenges facing the Department, as well as significant Defense acquisition
management issues. We also provided reports to requesting congressional committees and members covering a
wide array of issues including the anthrax vaccine, chemical protective suits, the Civil Air Patrol, information
technology, and general and flag officer housing. Additionally we commented on proposed legislation for the
Department’s Authorization Act, the Government Information Security Act, and the Export Administration Act.
In our last report I indicated that, although the Department budgeted for urgently needed additional resources, the
Congress reduced our fiscal year 2000 appropriation. To meet increasing demands placed on our agency by both
Congress and the Department, I again ask that our resource requirements forwarded in the fiscal year 2001
President’s Budget be supported. This support is essential to restoring much needed coverage to high-risk areas
with an appropriate level of responsiveness. Additionally, we have operated without an Inspector General for an
entire year.
As an example of the many unprogrammed projects we are called on to perform, on December 13, 1999, the
Secretary of Defense tasked the Office of the Inspector General to assess the environment with respect to the
application of the Department’s homosexual conduct policy, commonly referred to as “Don’t Ask, Don’t Tell.”
Within 90 days, our auditors and evaluators developed an appropriate survey, visited 38 military installations and
11 Navy ships, administered over 71,500 surveys and produced the Report on the Military Environment with
Respect to the Homosexual Conduct Policy. This report has elicited a positive response, and is being used by the
Department to more effectively address this sensitive area.
The men and women of the Office of the Inspector General are committed to providing a level of oversight to the
Department of Defense that materially contributes to the safety, efficiency and effectiveness of our Nation’s Armed
Forces.




                                                Donald Mancuso
                                             Deputy Inspector General
This page left blank intentionally
Semiannual Report to the Congress                                                                                                 Table of Contents




                                                TABLE OF CONTENTS
HIGHLIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                i
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        i
      Information Assurance. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               ii
      Other Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         ii

CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES . . . . . . . . . . . . . . . . . . . . .                                                                1
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
      Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
      Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 3
      Infrastructure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        4
      Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  5

      Special Emphasis Area--Information Assurance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                      7
          Recent Audit and Inspection Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           8
          Future Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            10
          Policy Still Evolving. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               11
          Summary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           12

CHAPTER TWO - SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                               13
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       13
      Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              13
      Hotline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    21
      Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  21
      Criminal Investigative Policy and Oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           26
      Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27
      Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            31

APPENDICES
      A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . .                                           A-1
      B. Inspector General, DoD, Audit Reports Issued Containing
         Quantifiable Potential Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             B-1
      C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                C-1
      D. Contract Audit Reports Issued. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       D-1

FIGURES
      1.     Defense Criminal Investigative Organizations Case Results. . . . . . . . . . . . . . . . . . . . . .                                      14
      2.     Military Whistleblower Reprisal Cases Open as of March 31, 2000 . . . . . . . . . . . . . . .                                             23
Table of Contents                                                                            Semiannual Report to the Congress




    3.   Whistleblower Reprisal Cases by Category of Employee
         Open as of March 31, 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        23
    4.   Program Integrity - Senior Official Inquiries Open as of September 30, 1999 . . . . . . . .                                    25
    5.   Program Integrity - Nature of Substantiated Allegations Against Senior
         Officials During 1st Half FY 00 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          25
    6.   Intelligence Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   31
Semiannual Report to the Congress                                                             Highlights




HIGHLIGHTS

INTRODUCTION                During the 6-month period ending March 31, 2000, the Office of the
                            Inspector General, Department of Defense, (OIG, DoD), continued to
                            place emphasis on reducing vulnerabilities and improving controls in the
                            principal high risk areas in the Department: Acquisition, Financial
                            Management, Infrastructure and Information Technology. In addition, the
                            OIG, DoD, gave special emphasis to the area of Information Assurance.

 Acquisition                In fiscal year 1999, the DoD purchased about $140 billion of goods and
                            services with 14.8 million purchase actions, about 57,000 on an average
                            working day. The DoD internal audit agencies issued 25 reports on acqui-
                            sition management. The audit results underscore the need to continue
                            efforts to strengthen acquisition reform efforts, improve DoD acquisition
                            policies and practices, place more management emphasis on processes for
                            managing contracts for services and dealing with workforce management
                            issues and the impact of reductions on the DoD acquisition workforce.

 Financial                  Although the DoD continues to make progress toward compliance with
 Management                 the new Federal accounting standards, the audit results for the fiscal year
                            1999 financial statements were no better than for previous years. The core
                            problem continues to be that the DoD lacks the financial and feeder
                            systems needed to compile financial statements in accordance with appli-
                            cable standards. The DoD audit agencies devoted more than 400 work-
                            years to financial statement audits. Of the 57 reports issued on financial
                            management, over 40 focused on financial statements.

 Infrastructure             Many ongoing logistics reform initiatives focus on problems identified in
                            previous audit and inspection reports but it is imperative that robust over-
                            sight efforts continue in this area. Infrastructure includes at least three
                            areas where the risk of waste and fraud is especially high: property
                            disposal, health care and environmental cleanup. During the reporting
                            period, DoD auditors issued 41 reports on construction, other facilities
                            issues, environmental programs, health care, supply and maintenance.
                            Investigative efforts in these areas are also highlighted.

 Information                The Y2K computing problem posed a huge challenge in terms of its
 Technology                 scope, because all 10,000 DoD networks and 2.5 million computers were
                            potentially affected. The DoD Y2K conversion effort was extremely
                            successful. Only a few system failures occurred, operational impact was
                            insignificant and surprisingly few problems occurred in supply chains and
                            infrastructure. The numerous findings in over 200 reports issued on Y2K

                                                   i
Highlights                                                  Semiannual Report to the Congress




                   conversion, as well as the hundreds of corrective actions taken in response
                   to those reports, identified many risks that the Department ultimately was
                   able to minimize. During this semiannual period, DoD auditors issued 35
                   reports on information technology issues; 28 addressed Y2K issues. With
                   the completion of the Y2K conversion, the oversight community needs to
                   provide more coverage of other information technology issues. The most
                   formidable of the known challenges in the area of information technology
                   relate to ensuring the security of networked systems and overcoming a
                   legacy of overly decentralized and poorly controlled information systems
                   management.

INFORMATION        The Y2K effort by the DoD audit organizations and the Service Inspector
ASSURANCE          General offices left relatively few resources for information assurance
                   coverage. Nevertheless, more than 20 reports were issued on the subject
                   between January 1999 and March 2000. Those reports pointed out the
                   need for a well-structured program with clear policies and metrics, as well
                   as more aggressive measures to deal with chronic laxity in basic security
                   procedures.

OTHER ACTIVITIES   During this reporting period, the investigative community was highly
                   successful with 249 indictments and over $500 million in monetary
                   outcomes in fraud investigations. Also, the DoD Hotline received 6,245
                   telephone calls, letters and electronic mail reporting fraud, waste and
                   mismanagement in DoD operations. The Hotline initiated 1,263 cases
                   from the information provided. Since 1982, over $419 million have been
                   recovered as a direct result of information provided to the Hotline.




                                         ii
Semiannual Report to the Congress                                                           Chapter One




CHAPTER ONE – REDUCE HIGH RISK VULNERABILITIES

INTRODUCTION                The size, complexity and mission of the Department of Defense (DoD)
                            create a wide range of management challenges, many of which are
                            exacerbated by the numerous outmoded or inefficient systems and
                            processes that have not yet been improved or replaced. Management
                            reform and process reengineering were emphasized in all DoD functional
                            areas throughout the 1990’s, but it is evident that several more years of
                            concerted effort will be required to achieve a wide range of statutory
                            reform requirements and DoD management improvement goals. Due to
                            their inherent characteristics and incomplete reforms, most DoD
                            “business” operations, such as vendor pay and property disposal, must be
                            considered high-risk activities. In this report, we provide updates on
                            challenges and oversight activity in the broad high-risk areas of
                            Acquisition, Financial Management, Information Technology Manage-
                            ment and Infrastructure. We also discuss one new Special Emphasis
                            Area–Information Assurance.

ACQUISITION                 During fiscal year 1999, the DoD purchased nearly $140 billion of goods
                            and services with 14.8 million purchase actions, about 57,000 on an
                            average working day. This huge scale makes oversight of DoD acquisition
                            programs extraordinarily difficult. The DoD internal auditors issued 25
                            reports on acquisition during this 6-month reporting period. The audit
                            results underscore the need to continue DoD efforts to strengthen the four
                            pillars of a successful acquisition effort, which are:

                                    • Sound processes for determining requirements.

                                    • A consistent and reasonable framework of laws and regulations.

                                    • Efficient processes incorporating sufficient management controls to
                                      ensure that desired results are achieved.

                                    • A sufficiently sized, highly trained and motivated acquisition
                                      workforce.

                            More can be done to improve DoD acquisition policies and practices in all
                            four areas. Regarding requirements determination, for example, in a
                            February 2000 report, we noted that few significant improvements had
                            been made to the guidance and models used to calculate needed quantities
                            of munitions, despite 20 audit reports over 5 years, indicating problems.
                            Systemic weaknesses include inconsistencies between Services,

                                                   1
Chapter One                                                        Semiannual Report to the Congress




                           questionable planning factors and lack of verification, validation and
                           accreditation of models. Part of the problem appears to be ambiguity
                           about what office is responsible for updating guidance and assessing the
                           realism of planning scenarios and weapon utilization factors used in
                           models.

                           The Department is still attempting to implement existing acquisition
                           reform legislation. In some areas, regulatory or policy guidance needed to
                           achieve legislative and management goals is lacking. For example, the
                           DoD made reduction of the amount of Government-owned equipment in
                           the possession of contractors a major goal in 1997, but has been unable to
                           finalize the regulatory changes needed to end the longstanding practice of
                           taking title to equipment for which there is little likelihood of further
                           need.

                           Numerous initiatives are under way to seek acquisition process improve-
                           ments. Some involve adopting commercial practices and many are
                           focused on using new information processing and communication tech-
                           nology to reduce paperwork and speed up various phases of the
                           acquisition cycle. Recently the central organization for contract adminis-
                           tration was split off from the Defense Logistics Agency (DLA) as the
                           independent Defense Contract Management Agency. Conceptually, this
                           realignment should help both agencies by allowing DLA to concentrate
                           on logistics and removing an organizational layer in the contracting
                           community.

                          Recent audits have indicated a clear need for DoD to put more manage-
                               ment emphasis on processes for managing contracts for services,
“An extensive audit of 105     which now cost over $50 billion annually and constitute a huge
contracting actions...showed procurement program in their own right. Historically, acquisition
flaws in all of them.”         reform efforts and training for both contracting and program
                               management personnel have been heavily skewed toward acquiring
                          hardware. An extensive audit of 105 contracting actions for professional
                          administrative and management support services showed flaws in all of
                          them. For example, Government cost estimates were inadequate for 77
                          percent of the actions.

                           Workforce management issues are now receiving much more attention in
                           DoD and elsewhere in Government. In DoD, recruiting, retention and
                           training problems exist for both civilian and military personnel. A recent
                           audit raised significant concerns about the impact of reductions on the
                           DoD acquisition workforce, which has been cut by over half without the
                           forecasted reduction in workload. The number of contracting actions over

                                                 2
Semiannual Report to the Congress                                                         Chapter One




                         $100,000 actually increased by 28 percent from fiscal years 1990 to 1999.
                         This mismatch between resources and workload is already having an
“A decade of downsizing...has left the    impact on productivity, and will likely get worse because
DoD acquisition workforce understaffed of the projected retirement of over 40 percent of the
and without a good balance between        workforce over the next 5 years. A reasonably sized, well
experienced and new employees.”           trained and highly motivated workforce is probably the
                                          most important factor in avoiding waste and increasing
                         efficiency in DoD acquisition programs. A decade of downsizing and
                         poor planning has left the DoD acquisition workforce understaffed and
                         without a good balance between experienced and new employees. Drastic
                         workforce reduction, if unaccompanied by process changes that decrease
                         workload proportionately, is counterproductive. The DoD must do a much
                         better job of understanding what drives the workload, realistically
                         assessing the likely impact of process changes and determining what
                         staffing resources and skills are needed.

FINANCIAL                 The Chief Financial Officers Act of 1990 and related legislation require
MANAGEMENT                extensive audits of DoD annual financial statements. The Office of
                          Management and Budget (OMB) requires the Department to compile and
                          audit not just financial statements for the DoD as a whole, but also
                          statements for 10 major subentities, such as the Army General Fund and
                          Air Force Working Capital Fund. The Chief Financial Officer, DoD, is
                          also pressing Defense agencies to prepare audited financial statements.
                          Unfortunately, the DoD lacks accounting systems that can generate
                          financial statements and must rely on a patchwork of innovative, but fun-
                          damentally inefficient and workload intensive procedures for compiling
                          required data. The Military Department and OIG, DoD, audits of DoD
                          financial statements for fiscal year 1999 identified an unbelievable $7.6
“Unfortunately, the DoD lacks            trillion in accounting adjustments. Of the $5.8 trillion of
accounting systems that can generate adjusted entries that were audited, $2.3 trillion were
financial statements and must rely on unsupported by reliable documentation and audit trails.
a patchwork of...procedures for          Accounting entries to complete or correct financial state-
compiling required data.”                ments are rare in the private sector and unsupported entries
                                         are strictly forbidden.

                            Although the DoD continued to make progress toward compliance with
                            the new Federal accounting standards, the audit results for the fiscal year
                            1999 financial statements were no better than for previous years.

                            Again this year, the Military Retirement Fund statements received an
                            unqualified audit opinion, but disclaimers were necessary for all other
                            DoD funds. The core problem continues to be that the DoD lacks the
                            financial and feeder systems needed to compile financial statements in

                                                  3
Chapter One                                                       Semiannual Report to the Congress




                         accordance with applicable standards. The controls in existing systems are
                         simply inadequate. Even huge and costly efforts to “audit in” the correct
                         data and documentation, such as were attempted by the Army and Air
                         Force over the past year, cannot compensate for the underlying system
                         problems.

“Even with limited coverage...the DoD  The DoD internal audit community devoted over 400
needs to keep working to improve       workyears to financial statement audits during the past
management controls just to meet       cycle. Of the 57 reports issued on financial management,
fundamental requirements....”          over 40 focused on financial statements. Other high-risk
                                       areas of concern, such as payments to contractors, received
                         very limited audit coverage. Even with limited coverage, it remained
                         evident that the DoD needs to keep working to improve management
                         controls just to meet fundamental requirements, such as posting
                         obligations when they are incurred, avoiding disbursement errors and
                         reducing vulnerability to fraud.

                         The OIG, DoD, welcomed the recent Defense Finance and Accounting
                         Service (DFAS) decision to upgrade its Internal Review Office. Manage-
                         ment must do more to monitor the correction of previously identified
                         weaknesses in the hundreds of processes involved in Defense finance and
                         accounting activities. A stronger Internal Review Program should be
                         helpful in this regard.

INFRASTRUCTURE           The Department has initiated several hundred actions to make its logistics
                         programs more efficient and less costly. In March 2000, the Department
                         issued guidance intended to place even more effort on this area, especially
                         by the Military Departments. The six reemphasized reform goals are:

                                • Optimize support to the warfighter.

                                • Improve strategic mobility through increased airlift and sealift
                                  capabilities and prepositioned equipment.

                                • Reduce the time customers must wait for products and services.

                                • Fully implement total asset visibility across the Department.

                                • Reengineer and modernize existing logistics systems and
                                  processes.

                                • Minimize logistics costs.


                                               4
Semiannual Report to the Congress                                                             Chapter One




                             Many ongoing logistics reform initiatives are focused on problems
                             identified in previous audit and inspection reports, but it is imperative that
                             a robust oversight effort continue in this area. Logistics reforms are
                             generally interrelated with changes in acquisition or finance practices. It is
                             particularly hard to implement process changes that cut across DoD
                             organizations and “communities.” Also, most logistics improvements
                                             depend on the successful introduction of new information
“It is particularly hard to implement
                                             systems. Because nearly all logistics operations lend
process changes that cut across DoD
                                             themselves well to performance measurement, the progress
organizations and ‘communities.’”
                                             and impact of the reform efforts, both individually and
                             collectively, should be readily apparent. However, the DoD has much
                             work to do to achieve reliable and timely performance reporting at the
                             level of detail needed to fine tune logistics practices. Finally,
                             infrastructure includes at least three areas where the risk of fraud is
                             especially high–property disposal, health care and environmental cleanup.

                             During the reporting period, DoD auditors issued 41 reports on
                             construction, other facilities issues, environmental programs, health care,
                             supply and maintenance. Investigative efforts are discussed in Chapter
                             Two.

INFORMATION              Success in modernizing, improving effectiveness and reducing cost in all
TECHNOLOGY               DoD management areas depends on overcoming information technology
                         management challenges. The most formidable of the known challenges
                         relate to ensuring the security of networked systems and overcoming a
                         legacy of overly decentralized and poorly controlled information systems
                         management, including ineffective oversight of major investment
“Success in modernizing, improving
                                        decisio ns. Issu es relat ed to the DoD i nfo rmati on
effectiveness and reducing cost in all technology workforce may constitute an additional major
DoD management areas depends on         challenge, but there is insufficient data available for
overcoming information technology       determining the severity of the problems. Although
management challenges.”                 outsourcing is often an effective alternative, this is not
                                        always the case.

                             The Y2K computing problem posed a huge challenge in terms of its
                             scope, because all 10,000 DoD networks and 2.5 million computers were
                             potentially affected. Likewise, the Y2K issue cut across DoD organiza-
                             tional and functional lines, involving warfighters and managers in all
                             areas, not just information technology. The Y2K conversion effort was
                             particularly difficult because the Department had seldom, if ever, been
                             confronted by such an ubiquitous problem. The Department was also
                             hampered by previous practices, such as lax configuration management,
                             poor software documentation and inattention to contingency plans.

                                                    5
Chapter One                                                        Semiannual Report to the Congress




                          Despite those difficulties, the DoD Y2K effort was extremely successful.
                          Only a few system failures occurred, operational impact was insignificant
                          and surprisingly few problems occurred in supply chains and infra-
                          structure, both in the United States and abroad. This does not mean that
                          the Y2K problem was not real. The numerous findings in over 200 reports
                          issued on Y2K conversion, as well as the hundreds of corrective actions
                          taken in response to those reports, identified many risks that the Depart-
                          ment ultimately was able to minimize. Those reports, which reflect the
                          largest internal audit effort on a single subject in DoD history, also
...“One of the major success factors
                                         demonstrate the powerful synergism that can be achieved
for DoD on Y2K was the transparency between oversight organizations and program managers,
resulting from including Congress,       without compromising the objectivity of either entity.
General Accounting Office (GAO),
OMB and the OIG, DoD, in all aspects     In the March 2000 report to Congressional defense
of the DoD Y2K effort.”                  committees on Year 2000 (Y2K) Lessons Learned, the
                                         Chief Information Officer, DoD, stated that “One of the
                           major success factors for DoD on Y2K was the transparency resulting
                           from including Congress, General Accounting Office (GAO), OMB and
                           the OIG, DoD, in all aspects of the DoD Y2K effort.” We agree with this
                           assessment and intend for the DoD internal oversight organizations to be
                           extensively involved in the Department’s other information technology
                           program efforts, especially security and system project management.

                           During this semiannual period, DoD auditors issued 35 reports on infor-
                           mation technology issues. The heavy focus on Y2K conversion, however,
                           necessitated scant coverage of other areas. Of the 29 OIG, DoD, informa-
                           tion technology reports, 27 addressed Y2K issues, one concerned security
                           and one addressed system project funding. Of the six Military Department
                           audit reports, one was a Y2K summary and three related to security. With
                           completion of the Y2K conversion, the oversight community needs to
                           provide more coverage of other information technology issues. This is a
                           high priority in our current planning, and we are working with the Depart-
                           ment, GAO and interested Congressional committees to determine the
                           specific programs and issues where audit coverage can be most useful.
                           Senior OIG, DoD, and Chief Information Office, DoD, personnel have
                           agreed to meet at least monthly on audit results and management plans
                           related to system acquisition oversight.

                           Oversight activity on Information Assurance is discussed below as a
                           Special Emphasis Area.




                                                 6
Semiannual Report to the Congress                         Special Emphasis Area--Information Assurance




INFORMATION ASSURANCE

                         Just as the human body cannot operate without its central nervous system,
                         the DoD could not function successfully if its information systems were
                         compromised or made to fail. Likewise, there are serious national security
                         implications in vulnerabilities of non-military infrastructure, such as air
                         traffic control systems or power distribution systems, to computer
                                     terrorism or cyberwarfare. The knowledge garnered over the
“...The DoD could not function past 3 years from another challenge to those systems, the “Y2K
successfully if its information Bug,” will be invaluable in understanding the gravity of the
systems were compromised or information assurance problem and how to organize an
made to fail.”                       effective program in response.

                            A massive effort was needed to solve the DoD Y2K conversion problem.
                            The Department spent over $3.6 billion, assessed more than 10,000
                            networked systems, conducted 88 multisystem end-to-end tests and 35
                            operational evaluation exercises, and coordinated with 5,000 critical
                            suppliers, dozens of other agencies, host countries abroad and other allies
                            on Y2K preparedness measures. Both the sheer magnitude of the effort
                            and the information generated on DoD system inventories, interfaces,
                            configurations and criticality underscore very graphically the dependence
                            of military operations and DoD internal business functions on information
                            technology systems.

                            In March 2000, the DoD provided a report to the Congress entitled Year
                            2000 Lessons Learned in response to a provision in the Defense
                            Appropriations Act for Fiscal Year 2000. The report addressed Y2K
                            lessons learned in the general context of improved management of cross-
                            cutting information technology issues. Information assurance implications
                            were not highlighted. Nevertheless, we agree with the insights provided
                            by the report and believe that all of them are applicable in the information
                            assurance effort.

                            The Y2K lessons discussed in the DoD report include:

                                    • Widespread applicability. Overcoming an information tech-
                                      nology problem as hard as the Y2K conversion was a significant
                                      confidence builder as the DoD faces other major information
                                      technology management issues.

                                    • Partnership. Close cooperation between DoD and its suppliers,
                                      other agencies and other governments was vital.

                                                  7
Special Emphasis Area--Information Assurance                        Semiannual Report to the Congress




                                   • Focus on readiness. Managers and commanders will strongly
                                     support information technology efforts if there are clearly under-
                                     stood readiness effects. Without their involvement, the informa-
                                     tion technology managers cannot solve cross-cutting problems
                                     that impact operations.

                                   • Horizontal problems require special management approaches.
                                     The DoD is organized along vertical lines. Cross-cutting
                                     problems require a team oriented approach and close Chief
                                     Executive Officer oversight to successfully resolve key organi-
                                     zational problems where responsibility does not lie solely with
                                     one major organizational component. The Y2K problem also
                                     showed the need for standardized guidance and performance
                                     measurement tools to focus efforts across the organization,
                                     coupled with proactive auditing and effective management
                                     response.

                                   • Systems inventory visibility. The DoD must retain accurate and
                                     updated information on its systems, applying the data for
                                     information assurance status reporting and other management
                                     control purposes.

                                   • Operational evaluations. The warfighting context provided by
                                     combatant command operational evaluations was critical to the
                                     DoD Y2K success. The operational evaluations validated infor-
                                     mation technology testing and evaluation, including exami-
                                     nation of contingency plans. In the future, the Department will
                                     incorporate information assurance, critical infrastructure protec-
                                     tion, interoperability and configuration management issues into
                                     routine Joint Staff, Combatant Command and Military
                                     Department exercise and training programs.

RECENT AUDIT AND            The DoD audit organizations, as well as the Service Inspector General
INSPECTION                  offices, produced over 200 reports on the Y2K conversion, leaving rela-
RESULTS                     tively few resources for information assurance coverage. Nevertheless,
                            more than 20 reports were issued on the subject between January 1999
                            and March 2000. Those reports, which covered mostly the Army, Air
                            Force and some Defense agencies, pointed out the need for a well-
                            structured program with clear policies and metrics, as well as more
                            aggressive measures to deal with chronic laxity in basic security
                            procedures. The findings can be grouped into five problem areas.




                                                  8
Semiannual Report to the Congress                         Special Emphasis Area--Information Assurance




                            First, pervasive problems exist in controlling access to databases and
                            systems. The OIG, DoD, reported in December 1999 that DoD policy
                            covering access controls over information systems had not been updated
                            since March 1988 and had not kept pace with changing information infra-
                            structure and technology advancements. Service, Defense agencies and
                            Office of the Secretary of Defense policies governing the use of
                            identification and authentication as a means of controlling access to infor-
                            mation systems vary significantly. Until the Assistant Secretary of
                            Defense (Command, Control, Communications, and Intelligence) updates
                            information security policies or issues other policy guidance that
                            specifically establishes uniform security requirements, DoD efforts to
                            reduce vulnerability of the Defense Information Infrastructure will be
                            hampered. In addition, reviews at DoD components such as the Army, Air
                            Force, DFAS and Defense Information Systems Agency (DISA)
                            identified numerous local access control issues.

                            Second, there has been mixed compliance with DoD requirements for
                            system certification and accreditation. Accreditation is the formal declara-
                            tion by the Designated Approving Authority that a system is approved to
                            operate in a particular security mode using a prescribed set of safeguards.
                            Accreditation of an information system should be supported by a certifi-
                            cation plan approved by the Designated Approving Authority, a risk
                            analysis of the information system in its operational environment, a
                            security safeguard evaluation and a certification report. Several reports
                            identified DoD systems with incomplete certification and accreditation.
                            Systems that are not properly certified and accredited are more vulnerable
                            to attack.

                            Third, it is important to focus attention and resources on high risk areas,
                            because the large number of DoD systems and organizations could
                            quickly overwhelm an unprioritized information assurance effort. Many
                            DoD component risk assessment programs are incomplete or ineffective.

                            Fourth, information assurance training needs more emphasis. The DoD
                            Directive 5200.28 requires all persons accessing an automated infor-
                            mation system to have completed a security training and awareness
                            program. Although several of the audited DoD systems had security
                            training and awareness programs in place, incomplete guidance, docu-
                            mentation and oversight resulted in users not receiving adequate training
                            before they were granted access to sensitive computer systems, data and
                            programs.




                                                  9
Special Emphasis Area--Information Assurance                        Semiannual Report to the Congress




                            Fifth, despite heavy emphasis on system contingency plans and
                            organizational business continuity plans during the Y2K conversion,
                            many DoD managers regard updating contingency plans as a relatively
                            low priority. The DoD Directive 5200.28 requires that contingency plans
                            be developed and tested to ensure that automated information system
                            security controls function reliably and that adequate backup functions are
                            in place to ensure that security functions are maintained continuously
                            during interrupted service. Procedures must be in place to recover data if
                            it is modified or destroyed. We continue to find deficiencies in recovery
                            plans, frequency of data back-up and testing.

FUTURE ACTIVITY             In testimony to the House Budget Committee in February 2000, the
                            Deputy Inspector General, DoD, discussed these findings and concluded
                            that DoD needs to:

                                   • Adapt lessons learned from the Y2K conversion effort.

                                   • Consolidate and update policy guidance.

                                   • Establish better management control over the many separate
                                     efforts now under way or planned.

                                   • Develop reasonable program performance measures.

                                   • Ensure full attention to information assurance concerns in new
                                     system development and electronic commerce initiatives.

                                   • Intensify on-site information security inspection and audit
                                     efforts.

                                   • Improve training across the board for technical personnel,
                                     security officers and systems users.

                            The DoD is turning increased attention to these matters, but a sustained
                            effort will be needed for the foreseeable future. To succeed, the Depart-
                            ment will need robust audit, inspection and investigative support. The
                            OIG, DoD, has assured DoD senior managers that a Y2K-like informal
                            partnership with the Chief Information Officer on information assurance
                            is both feasible and planned, although the audit resources earmarked for
                            this matter will be far fewer than was the case for the extraordinary Y2K
                            effort, due to budget constraints. We anticipate that managers and com-
                            manders at various levels will continue to want Service audit and
                            inspection coverage as well.

                                                 10
Semiannual Report to the Congress                          Special Emphasis Area--Information Assurance




                            The DoD criminal investigative community is focused on computer
                            crimes, which range from child pornography and Web page defacements
                            to denial of service, root intrusions, theft of critical technology and virus
                            attacks. Computer crime investigations require specialization regarding
                            the investigation, seizure and forensic analysis of information. This has
                            caused the reallocation of limited resources, including manpower and
                            funding to cover the costs of training and updated specialized investi-
                            gative equipment.

                            To meet the challenges in this area, the Department established the DoD
                            Computer Forensics Laboratory and the DoD Computer Investigations
                            Training Program. The DoD also set up the Joint Task Force-Computer
                            Network Defense (JTF-CND) with responsibility, in conjunction with the
                            Combatant Commands, Services and Defense agencies, for coordinating
                            and directing the defense of DoD computer systems and computer net-
                            works. The Law Enforcement/Counterintelligence Cell (LE/CIC) operates
                            within the JTF-CND to coordinate DoD law enforcement and counter-
                            intelligence investigations. All defense criminal investigative organiza-
                            tions are represented within the LE/CIC. In addition to coordinating
                            within the DoD, the LE/CIC is also in direct communication with the
                            National Infrastructure Protection Center.

                            Computer crime investigative units have been established in each of the
                            defense criminal investigative organizations to combat computer intru-
                            sions into the DoD information infrastructure and to seize and analyze
                            computer crime evidence.

                            The intelligence community has also had a longstanding role in informa-
                            tion assurance. The Intelligence Community Inspector General Forum
                            established the Information Assurance Working Group in September
                            1999. The objective of the Working Group is to enhance management of
                            information assurance throughout the intelligence community through
                            information sharing and coordination and by appropriate individual and
                            joint projects that assure the accountability, availability, integrity, authen-
                            ticity, confidentiality and non-repudiation of information services. Further
                            discussion of information assurance oversight in the intelligence com-
                            munity is included in the Classified Annex to this report.

POLICY STILL                Federal information assurance policy continues to develop. The Congress
EVOLVING                    and the OMB are considering additional guidelines that would affect
                            future DoD efforts. Specifically, S.1993, the Computer Security Improve-
                            ment Act of 1999, would mandate a strong OMB role and require annual
                            evaluations of each department’s information security posture. In the case

                                                   11
Special Emphasis Area--Information Assurance                        Semiannual Report to the Congress




                            of systems used to support national security missions, the Secretary of
                            Defense and Director of Central Intelligence would determine indepen-
                            dent evaluation mechanisms and the Inspectors General of the DoD and
                            Central Intelligence Agency would audit the respective evaluations of
                            their Department or Agency. The OIG, DoD, has commented favorably
                            on S.1993. The Bill’s emphasis on continuous risk management is well
                            placed, and the requirement for annual security posture evaluations, vali-
                            dated by audits, is reasonable.

                            The OMB is staffing proposed revisions to Circular A-130, Management
                            of Federal Information Resources, which also would strengthen the OMB
                            role in information assurance oversight. The DoD is unlikely to welcome
                            detailed OMB reporting requirements; however, the OIG, DoD, believes
                            that OMB needs to have an active oversight role in this area and meaning-
                            ful oversight is impossible without current, reliable and sufficiently
                            detailed information. We recommend that the DoD and OMB share the
                            same management information data set, which will be classified.

                            The OIG, DoD, and GAO have reported several times that DoD
                            information security policies need to be updated, consolidated and clari-
                            fied. Efforts are under way to do so. It is important, of course, that
                            additional Congressional and OMB requirements be accommodated in the
                            ongoing policy revisions.

SUMMARY                     The DoD has been accelerating its information assurance efforts over the
                            past several years, regardless of the Y2K distraction. In fact, the Y2K
                            effort provided many useful insights and lessons to be applied as the
                            Federal and DoD information assurance programs develop. This will
                            remain a high risk area for the indefinite future and merits very close
                            attention from senior managers and the Congress.




                                                 12
Semiannual Report to the Congress                                                          Chapter Two




CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION                This chapter summarizes the significant activities of the OIG, DoD,
                            components and their work with other members of the DoD oversight
                            community.

CRIMINAL                    The four Defense Criminal Investigative Organizations (DCIOs) continue
INVESTIGATIONS              to combat crime affecting the DoD and the Military Departments. The
                            Defense Criminal Investigative Service (DCIS), the criminal investigative
                            arm of the OIG, DoD, focuses the bulk of its 321 civilian criminal investi-
                            gators on the investigation of procurement fraud by Defense contractors
                            and health care fraud by health care providers. The Army Criminal
                            Investigation Command (CIDC), the Naval Criminal Investigative
                            Service (NCIS) and the Air Force Office of Special Investigations
                            (AFOSI), also investigate procurement fraud, but focus the majority of
                            their resources on other crimes against persons and property affecting
                            their respective Military Departments. The AFOSI and NCIS also conduct
                            counterintelligence investigations and operations. This section focuses on
                            the procurement, health care and other major fraud investigations
                            accomplished by the DCIOs.

                            Figure 1 (page 14) displays the investigative results achieved by the four
                            organizations during this period. As in previous reports, the statistics do
                            not include general crime investigations (other than large-scale thefts) or
                            counterintelligence activities.

 Examples of Major          The following are examples of some of the more significant fraud cases
 Procurement Fraud          investigated by the DCIOs during this semiannual period. It should be
                            noted that in virtually all instances, the Defense Contract Audit Agency
                            (DCAA) played a critical role in supplying needed audit support.

                            Alliant Techsystems, Incorporated, agreed to pay $1,316,532 in civil
                            restitution to settle allegations that it failed to provide Army contract
                            negotiators with the most current, complete and accurate cost and pricing
                            data for the purchase of AT-4 Light Anti-Armor Weapons. The complaint
                            alleged that negotiators were not notified that Alliant was changing from a
                            two- to a one-piece muzzle cover, which should have resulted in a
                            substantial reduction in cost to the Government.

                            David M. Mitchell, co-owner and president of Campbell M. Industries,
                            Incorporated, was initially investigated for product substitution, for which
                            he was tried, convicted and sentenced. While being investigated for the

                                                  13
Chapter Two                                                                     Semiannual Report to the Congress

                        DEFENSE CRIMINAL INVESTIGATIVE ORGANIZATIONS CASE RESULTS
                                                   Procurement Fraud
                                                  and Major Health Care         Other Criminal
                                                   Fraud Investigative           Investigative
                                                      Case Results                  Results                Total
LITIGATION RESULTS
    Indictments - DoJ                                                 82                   118                  200
    Convictions - DoJ                                                 81                   112                  193
    Indictments - State/Local/Foreign                                  7                    42                     49
    Convictions - State/Local/Foreign                                  1                    44                     45


MONETARY OUTCOMES
    DoJ Only                                              $484,907,633             $13,213,419         $498,121,052
    DoD Administrative Recoveries                              20,764,401              290,216           21,054,617
    DoD Investigative Recoveries                                 665,783             12,315,249          12,981,032
    State/Local/Foreign                                           13,147               432,363              445,510
    Total Monetary Outcomes                               $506,350,964             $26,251,247         $532,602,211


SUSPENSIONS AND DEBARMENTS RESULTING FROM INVESTIGATIONS
    Suspensions
    Individual                                                        21
    Companies                                                         21
    Debarments
    Individual                                                        32
    Companies                                                         16
                                                      Figure 1


                                               first matter, Mitchell attempted to negotiate a stolen U.S.
                                               Treasury check by falsely representing the check as payment
                                               for DoD contract work he had performed. As a result of this
                                               separate violation, Mitchell was arrested, pled guilty to bank
                                               fraud and sentenced to 33 months confinement, 5 years
                                               probation and ordered to pay $197,717 in restitution.

                                            Northrop Grumman agreed to pay a $750,000 civil settlement
                                            to the Government to resolve issues of substandard work.
                                            N o r t h r o p G r u m m a n ’s Lo u i s i a n a C o r p o r a t i o n wa s
                                            investigated for allegedly failing to properly calibrate ovens
                                            used to heat-treat aluminum aircraft parts used on the E8-C
                                            Joint Surveillance Target Attack Radar System (JSTARS)
                                            Aircraft, among other improper practices. Two individuals
E8-C Joint Surveillance Target Attack Radar who filed a related qui tam complaint will share $180,000 of
        System (JSTARS) Aircraft            the settlement amount.


                                                          14
Semiannual Report to the Congress                                                           Chapter Two




                            Page AvJet Corporation (PAC) agreed to pay a $1.395 million civil
                            settlement to resolve false claims issues regarding U.S. Foreign Military
                            Funding (FMF) granted to the Government of Israel. Under FMF rules,
                            administered by the Defense Security Assistance Agency, PAC certified
                            that over half of the value of goods and services it provided to Israel was
                            of American origin. However, results of the investigation indicated that
                            most of the work was performed by an Israeli contractor in Israel.

 Examples of Health       An investigative project identified 18 hospital laboratories engaged in
 Care Fraud               improper/illegal billing practices. The scheme involved unbundling
                          chemical profiles and billing for them separately, resulting in excessive or
                          duplicate charges paid by the TRICARE (the health care system for
                                      uniformed Service members and their dependents),
“...eight hospitals and medical
                                      Medicare, Medicaid and various insurance companies.
centers agreed to pay a total of
                                      During the current reporting period, eight hospitals and
$1,121,480 in civil restitution....”
                                      medical centers agreed to pay a total of $1,121,480 in civil
                                      restitution to the Government to resolve these issues.

                            John R. O’Donnell, M.D., was investigated for defrauding Blue Cross-
                            Blue Shield, Medicare and TRICARE through various improper billing
                            schemes and billing for procedures he was not authorized to perform as a
                            general practitioner. Following indictment, he and his wife were arrested
                            for violating conditions of their pre-trial release. They allegedly took the
                            assets from the sale of properties that had been used as securities for their
                            release and placed them in “offshore accounts” while preparing to flee the
                            United States. O’Donnell was convicted of mail fraud, tax evasion, money
                            laundering and illegal distribution of a controlled substance. He was
                            ordered to forfeit the properties obtained through his illegal conduct, plus
                            his retirement account, a total value of approximately $553,000; he awaits
                            sentencing. Carol O’Donnell, who worked in her husband’s medical
                            office, pled guilty to mail fraud for submitting false billing documents to
                            insurers. She was sentenced to 21 months in prison, 3 years supervised
                            release and ordered to pay $688,278 in restitution.

                                             A $486 million global settlement was reached with
“A $486 million global settlement
                                             Fresenius Medical Care headquartered in Lexington,
was reached with Fresenius Medical
                                             Massachusetts. The settlement was the result of a 5-year,
Care headquartered in Lexington,
                                             multi-agency investigation into allegations that National
Massachusetts. The settlement is
                                             Medical Care (NMC) conspired to defraud the United
the result of a 5-year, multi-agency
                                             States through the submission of false claims and the
investigation....”
                                             p ayment of k ick backs. The NMC, purchased by
                            Fresenius in 1996, provided services and supplies for patients with end-
                            stage renal disease. The alleged false claims included billing unnecessary
                                                  15
Chapter Two                                                      Semiannual Report to the Congress




                          laboratory tests and nutritional services, falsifying documents and double
                          billing laboratory services. As part of the settlement, three NMC
                          divisions–NMC Homecare Division, Lifechem Laboratory and Medical
                          Products Division–each pled guilty to conspiracy to defraud the United
                          States. Former company officials pled guilty and await sentencing or have
                          been indicted and await trial.

                          Psychiatrist Kristopher K. Wendler was convicted in 1995 on a 15-count
                          criminal information for fraud. A follow-on investigation found evidence
                          that for 5 years Wendler defrauded TRICARE, Medicare and Medicaid,
                          and, although licensed to practice in Kansas, he operated without a license
                          in Missouri. His license was suspended in October 1997. Wendler
                          allegedly defrauded TRICARE through such schemes as billing for 40
                          individual therapy sessions when he actually provided group therapy,
                          billing for much longer sessions than he provided and billing for services
                          he was not licensed to perform. Wendler was arrested in January 1998 and
                          indicted on the current charges. He was denied parole on his state fraud
                          charges in 1999 since he was considered to be a threat to witnesses who
                          testified against him and a flight risk in light of the potentially lengthy jail
                          time he faced. A Federal trial jury found Wendler guilty of 21 counts of
                          mail fraud. He was sentenced to 46 months imprisonment, 3 years
                          probation and ordered to pay $206,688 restitution and a $2,100 special
                          assessment.

                                             An investigation of Columbia Healthcare Corporation
   “...a divisional chief executive          for fraud against TRICARE, Medicare and Medicaid
   officer...was sentenced to 33 months      found evidence that two of the corporation’s executives
   in prison, 3 years probation and          filed fraudulent cost reports since 1987 for Columbia’s
   ordered to pay a $10,000 fine and         Fawcett Memorial Hospital in Florida. Both executives
   $1,683,417 in restitution.”               were convicted in a jury trial of false statements,
                                             conspiracy and fraud. Robert Whiteside, Director of
                          Reimbursement, was sentenced to 24 months in prison, 3 years probation
                          and ordered to pay a $7,500 fine and $645,796 in restitution. Jay Jarrell, a
                          divisional chief executive officer, was sentenced to 33 months in prison, 3
                          years probation and ordered to pay a $10,000 fine and $1,683,417 in
                          restitution.

                          A qui tam complaint alleged that the University of Chicago Hospital and
                          the physicians assigned to the Hematology/Oncology Clinic billed
                          Medicare and Medicaid, against regulations, for the services of an
                          attending physician when the services were actually performed by a
                          resident physician and conspired to conceal that activity. Additional
                          allegations, which also affected TRICARE, included billing for complex

                                             16
  Semiannual Report to the Congress                                                               Chapter Two




                              examinations regardless of the services rendered, and billing for
                              consultations even though it was not the patient’s first visit to the clinic
                              doctor. To resolve these allegations, the hospital agreed to pay a total of
                              $10,900,000 in civil restitution to the Government and the State of
                              Illinois. The relator will receive $1.85 million of this settlement.

 Other Criminal               In addition to the matters listed above, the DCIOs conducted various other
 Investigative                significant investigations involving large-scale thefts and non-
 Results                      procurement related fraud.

   Marketing Fraud      American Fidelity Life Insurance Company (AFLIC) and Trans World
                        A ss u r an c e C o m p a n y ( TWAC) a g r e e d t o p a y $ 1 0 , 1 0 9 , 3 0 3 i n
                        administrative settlements to resolve a variety of alleged violations. The
                                        companies primarily targeted financially inexperienced
“American Fidelity Life Insurance soldiers, sailors, marines and airmen in an effort to sell
Company...and Trans World               them life insurance policies allegedly misrepresented as
Assurance Company...agreed to           “investments,” “savings plans” and “retirement plans.”
pay $10,109,303 in administrative Some sales agents were retired military members who
settlements....”                        entered military installations using their retired military ID
                                        cards. To gain access to young, unsuspecting military
                        members, sales agents allegedly bribed some noncommissioned officers
                        or convinced others that their product was “good” for Service members.
                        Sales agents allegedly used a variety of fraudulent sales pitches, such as
                        claiming that the life insurance plan officially available through the DoD
                        (Servicemen’s Group Life Insurance (SGLI)) would not cover the Service
                        members in non-combat areas or when they were off duty, which caused
                        some Service members to cancel their SGLI enrollment. Another
                        misleading ploy was claiming that Service members could not secure a
                        Department of Veterans Affairs loan unless they were in a retirement plan
                        with AFLIC or TWAC. More than $7.7 million of the settlement will be
                        refunded to Service members who invested in AFLIC or TWAC products
                        between 1977 and 1997. The agreement also specified a mechanism for
                        other Service members to seek refunds, as well as a corrective action and
                        an oversight plan.

   False Claims               A multi-agency investigation of a qui tam complaint resulted in
                              significant civil settlements with three entities. To resolve allegations of
                              false claims against Medicare, Medicaid, TRICARE and the Federal
                              Employees Health Benefits Program, Medical Consultants, Incorporated
                              (doing business as Emergency Physicians Billing Service), and its
                              president, Joseph D. McKean, M.D., agreed to pay a total of $15 million
                              in restitution. The relator will receive $1 million directly from the
                              defendants, plus 25 percent of the Government’s share; more than $2

                                                       17
Chapter Two                                                Semiannual Report to the Congress




                   million will go to the affected states. In a separate civil settlement,
                   affiliate MBLS Emergency Physicians agreed to pay a total of $87,000 in
                   restitution to the U.S. Government and the State of Florida. The
                   companies allegedly engaged in upcoding, billing for services not
                   performed and billing twice for the same procedure.

                   An investigation found evidence that, although suspended and debarred
                   from conducting business with the DoD, Robert Silver, former president
                   of Silver Sales, Incorporated, submitted numerous false claims to the
                   Defense Supply Center, Richmond, Virginia (DSCR). The claims
                   misrepresented the manufacturer and quality of chemical products
                   supplied on DCSR contracts for use by NASA and the DoD. Silver pled
                   guilty to one count of false claims to a Federal agency and was sentenced
                   to 33 months imprisonment, 3 years probation and ordered to pay
                   restitution of $148,089.

                   Diverse Technologies Corporation (DTC) and its president agreed to pay
                   a $400,000 settlement to resolve false claims allegations. The DTC is
                   alleged to have knowingly billed the Navy for hours worked by DTC
                   employees who were not qualified for the labor categories under which
                   they were billed, and billed the Navy for work by DTC employees not
                   chargeable to Government contracts. The DTC provided management and
                   technical support to the Navy for consolidation of its accounting systems.

                   Occupational Training, Incorporated (OTI), and its president, Marcus
                   Bass, agreed to pay a civil settlement of $97,376 to resolve false claims
                   allegations. The OTI provided Asbestos Hazard Emergency Response Act
                   (AHERA) training to military units in Hawaii and Japan. Bass claimed he
                   was accredited by the State of Indiana, an EPA licensed state, to conduct
                   AHERA training. The investigation found evidence that Bass presented
                   14 AHERA classes without possessing the proper accreditation.

  Environment      American Processing Company, National City, California, entered into a
                   settlement in the Southern District of California Federal Court whereby
                   the company agreed to pay civil fines of $3,000,000 for the transportation
                   of 135 tons of hazardous waste without a uniform hazardous waste
                   manifest. American Processing Company was subcontracted to dispose of
                   “organo” lead contaminated soil from a construction site at the Naval
                   Amphibious Base, Coronado, California.

  Export Control   Orbit/FR, Incorporated (Orbit), a DoD contractor located in Pennsylvania,
  Violations       pled guilty to two counts of violating the Arms Export Control Act and
                   was fined $600,000. The investigation found evidence that Orbit exported

                                        18
Semiannual Report to the Congress                                                           Chapter Two




                                                        defense articles and services, through its parent
                                                        company in Israel, to the People’s Republic of
                                                        China without proper licenses or authorization
                                                        from the Departments of State or Commerce.
                                                        This included military equipment for use in
                                                        China’s missile development program that had
                                                        been developed for the Israeli Defense Forces.
                                                        Orbit also provided technical expertise to
                                                        improve the accuracy of a Chinese surface-to-
                                                        air missile system similar to the Patriot missile
                    Patriot Missile                     system.

  Contracting Fraud          Gothrie Short, President of Tri Gems Builders, and Jason Griffin, Vice
                             President, were convicted and sentenced in New Jersey for their role in
                             conspiring to fraudulently obtain U.S. Government contracts awarded
                             under the Small Business Administration’s Set-Aside Program on a non-
                             competitive basis and inflating costs associated with those contracts. Both
                             were sentenced to 3 years probation and ordered to pay a $10,000 fine and
                             restitution in the amount of $315,000.

                             Jacobs Engineering Group, Incorporated, sold its corporate headquarters
                             in Pasadena, California, under a sale/leaseback arrangement with the
                             Government, but allegedly continued to charge the Government a higher
                             price to offset its overhead costs in violation of Federal Acquisition
                             Regulations. Jacobs Engineering subsequently agreed to a global
                             settlement of $35,000,000 in return for a stipulation of dismissal of
                             charges.

  Kickbacks/Bribery          A 4-year undercover investigation into the maritime industry identified
                             widespread corruption in the repair and maintenance of Government ships
                             in the DoD Military Sealift Command (MSC) fleet and the Department of
                             Transportation (DOT) Maritime Administration (MARAD) fleet. As of
                             March 2000, there were 43 indictments against 31 individuals and
                             companies. The following paragraphs illustrate some of the results.

                             Warren Hilton, a surveyor for the MARAD in Beaumont, Texas, pled
                             guilty to bribery. Hilton received merchandise from CBH Services, a
                             MARAD contractor, including a large screen television, video cassette
                             recorder, power washer, computer and more, with a total value of more
                             than $16,000. The costs of these items were then concealed in false
                             invoices submitted by CBH to the Government. Hilton was sentenced to 4
                             months in prison, 4 months home detention and ordered to pay $7,460 in
                             restitution.

                                                   19
Chapter Two                                                          Semiannual Report to the Congress




                                                Janco Ship Repair, Incorporated, and its owner,
                                                Joseph LeClair III, pled guilty to paying kickbacks to
                                                port engineers in return for favorable treatment. Janco
                                                was sentenced to a $1,550 fine and $200 special
                                                assessment. In both Florida and Virginia, LeClair
                                                received concurrent sentences of 3 years probation,
                                                including 6 months home detention, and was ordered
                                                to pay a total fine of $3,000. Janco, a subcontractor to
                                                Bay Ship Management, Incorporated, performed
                                                repairs aboard MSC ships. Bay Ship held multi-
          USNS Denebola (T-AKR 289)             million dollar prime contracts with the Navy to
               Fast Sealift Ship                oversee the operation and repair of Navy vessels.

                            Joseph Wing, a former DOT MARAD employee, introduced Boston Ship
                            Repair (BSR) officials to a Bay Ship official. In return for the
                            introduction, BSR paid Wing a “consultants fee” that he did not claim on
                            his income tax return. Wing pled guilty and was sentenced to 2 years
                            probation and ordered to pay a $2,000 fine for income tax evasion.

                            For violating the anti-kickback statute, BSR’s president and vice president
                            were each sentenced to 12 months incarceration, 2 years probation and
                            ordered to pay a $30,000 fine. Investigation found that the two BSR
                            executives paid kickbacks to an official of Bay Ship in return for ship
                            repair subcontracts.

                                       Invest igatio n reveal ed alleged k ick backs pai d by
“Five individuals pled guilty to
                                       subcontractors to obtain ship repair contracts from two
paying or receiving kickbacks and
                                       master ship repair companies (MSRs). Five individuals
were sentenced to imprisonment
                                       pled guilty to paying or receiving kickbacks and were
and/or probation.”
                                       sentenced to imprisonment and/or probation. Three
                        companies, Gamma Tech Industries, Tidelands Testing and San Diego
                        Marine Piping, pled guilty to paying kickbacks and were each sentenced
                        to 5 years probation. The companies and two of the individuals will pay a
                        total of $1,513,741 in joint or separate restitution to the United States and
                        to one of the MSRs.

                            Donna LeMaire, President of Triplex Marine Maintenance Incorporated,
                            Port Arthur, Texas, and Keith Courvelle, a Triplex superintendent, pled
                            guilty to paying kickbacks. Danny Weldon, a Triplex estimator, pled
                            guilty to theft of Government funds. LeMaire, Courvelle and Weldon
                            were each sentenced to 3 years probation, including 3 months home
                            detention, and ordered to share in paying $67,185 in restitution. LeMaire
                            and Courvelle were fined $10,000 each; Weldon was fined $5,000. The

                                                  20
Semiannual Report to the Congress                                                            Chapter Two


                            investigation found that LeMaire and Courvelle paid kickbacks in the
                            form of secretarial services, entertainment and travel expenses and other
                            gratuities to port engineers employed by Bay Ship in New Orleans. The
                            kickbacks, which ensured favorable treatment (subcontract awards) by
                            Bay Ship, were reimbursed through falsified invoices charged to the
                            MSC.

 Theft/Forgery              Two checks intended as payment to a DoD contractor were negotiated
                            after being reported missing. Investigators tracked one $12,600 check to a
                            liquor establishment that cashed the check for a regular customer. Robert
                            Stanton, who confessed to finding the checks in a trash bin located near
                            the DoD contractor’s former address, voluntarily turned over the $15,000
                            in cash remaining from the original $75,000 in checks. Stanton pled guilty
                            to forgery and was sentenced to 5 years probation, including 6 months
                            home confinement with electronic monitoring, and ordered to pay
                            $60,000 in restitution.

HOTLINE                     During this reporting period, the Hotline received 6,245 telephone calls,
                            letters and electronic mail resulting in the initiation of 1,263 cases. During
                            the same period, the Hotline closed 1,039 cases. The Hotline responded to
                            126 requests for posters and other marketing material from DoD activities
                            and DoD contractors in our continuing effort to identify fraud and waste
                            within the DoD. Since 1982, over $419 million has been recovered as a
                            direct result of inquiries initiated in response to information provided to
                            the Hotline.

 Significant Hotline        As a result of a Hotline complaint, a subsequent DCIS and NCIS investi-
 Complaints                 gation substantiated allegations that Hughes Aircraft of Mississippi,
                            Incorporated, intentionally installed substandard and untested components
                            in “ADCAP Mk 48” torpedoes. Negotiations with General Motors, the
                            parent company, led to a settlement of $500,000.

                            As a result of an anonymous Hotline complaint, the U.S. Army Criminal
                            Investigation Division conducted an investigation into allegations that
                            Allied Signal submitted fraudulent billings to the Government. Without
                            any admission of liability or fault, the contractor entered into a civil
                            settlement and agreed to pay $200,000 to the U.S. Treasury.

ADMINISTRATIVE              The OIG, DoD, Departmental Inquiries Office conducts investigations
INVESTIGATIONS              and also performs oversight of investigations conducted by the Military
                            Departments. These investigations pertain to:




                                                  21
Chapter Two                                                      Semiannual Report to the Congress




                             •   Allegations of reprisal against military members, Defense
                                 contractor employees and nonappropriated fund employees.

                             •   Allegations that military members were referred for mental
                                 health evaluations without being afforded the rights prescribed
                                 in the DoD Directive and Instruction pertaining to mental health
                                 evaluations of members of the armed forces.

                             •   Noncriminal allegations against senior military and civilian
                                 officials.

 Whistleblower          During the reporting period, the Special Inquiries Directorate and the
 Reprisal Activity      Inspectors General of the Military Departments received 185 complaints
                        of whistleblower reprisal. We closed 142 cases during this period. Of
                        those, 100 were closed after preliminary analysis determined further
                        investigation was not warranted, and 42 were closed after full investi-
                        gation. Of the 42 cases closed after full investigation, eight (19 percent)
                        contained one or more substantiated allegations of whistleblower reprisal.

 Referrals for Mental   Thirteen cases closed during the reporting period contained allegations of
 Health Evaluations     improper referrals for mental health evaluations. We did not substantiate
                        that any mental health evaluation referrals were used to reprise against
                        Service members for whistleblowing. However, we concluded that in five
                        of the 13 cases, commanders failed to follow the proper procedures for
                        referring a Service member for a mental health evaluation under DoD
                        Directive 6490.1, "Mental Health Evaluations of Members of the Armed
                        Forces."

                        Figures 2 and 3 (page 23) show the types and distribution of whistle-
                        blower reprisal cases as of March 31, 2000.

 Examples of            An Army sergeant first class received counseling statements, a suspension
 Substantiated          of platoon sergeant duties, an initiation of a field grade administrative
 Military               disciplinary action and an unfavorable (Relief for Cause) Noncom-
 Whistleblower          missioned Officer Evaluation Report in reprisal for making protected
 Reprisal Cases         communications to his company commander. The sergeant first class had
                        reported his perceptions of improper off-post conduct by an officer and
                        two senior noncommissioned officers. The responsible management
                        officials have retired or resigned their commissions.

                        An Air National Guard female staff sergeant received an unfavorable
                        performance report in reprisal for making complaints of favoritism and
                        sexual harassment against her supervisor, a senior master sergeant. The

                                              22
Semiannual Report to the Congress                                                                                 Chapter Two




                                  Military Whistleblower Reprisal Cases*
                                                 Op en as of March 31, 2000

                          100                                             98 (44%)
                           90
                           80                      69 (31%)
                           70
                           60
                           50       43 (19%)
                           40
                           30
                           20                                                   12 (5%)

                           10                                                                     3 (1%)

                            0
                                 IG, DoD         Army            USAF         Na vy         USMC
                                                 Total Open Cases: 225
                  *This graph provides a breakdown of military whistleblower reprisal cases by the organization
                  conducting the investigative work. All cases completed by the Services are submitted to the
                  Special Inquiries Directorate, OIG, DoD, for review and approval.


                                                                 Figure 2




                                                Whistleblower Reprisal C ases
                                                 By Category Of Em ployee
                                                     Op en as of M arch 31, 2000


                                                                          NAF        Contractor
                                                                          5%            4%




                                                      Military
                                                       91%
                                                                              T otal Open C as es: 247




                                                                 Figure 3



                                                               23
Chapter Two                                                        Semiannual Report to the Congress




                          responsible management official received a letter of reprimand that will
                          remain in his record for one year.

                          A Navy communications specialist first class received an unfavorable
                          Evaluation Report and Counseling Record for filing two complaints with
                          a Navy Inspector General and for filing an Article 138 complaint against
                          his commanding officer. Corrective action is pending before the Navy.

 Senior Official          Figures 4 and 5 (page 25) show results of activity on senior official cases
 Inquiries                during the period. On March 31, 2000, there were 235 ongoing investi-
                          gations into senior official misconduct throughout the Department,
                          remaining nearly constant since October 1, 1999, when we reported 229
                          open investigations. Over the past 6 months, we closed 250 senior official
                          cases, of which 30 (12 percent) contained substantiated allegations.

 Examples of Cases       We substantiated allegations that a senior DoD official misused his
 Involving Senior        position by arranging official duties as a pretext for obtaining Govern-
 Officials               ment funded travel when the primary purpose of the travel was, in fact,
                         personal business. Further, we found that on other occasions the senior
                         official conducted travel at Government expense that served no
                         substantial official purpose or was wasteful because the stated purpose of
                         the travel was of incidental benefit to the Government. Finally, we found
                         that the senior official violated DoD ethics regulations by allowing his
   “...a senior DoD official misused subordinates to perform personal services for him in
   his position by arranging official connection with official travel. The results of the
   duties as a pretext for obtaining investigation have been provided to the cognizant
   Government funded travel....”          Military Department for consideration of corrective
                                          action.

                          At the request of a Member of Congress, we investigated allegations that a
                          senior DoD official violated restrictions concerning a conflict of interest
                          by taking official action in matters involving a company with whom he
                          was pursuing post-retirement employment. The case was particularly
                          noteworthy because the senior official allegedly used his position to
                          influence the results of an aircraft accident review to benefit the defense
                          contractor, which eventually employed him after he retired from Federal
                          service. Although we confirmed that the senior DoD official participated
                          in matters that involved the contractor with whom he later accepted post-
                          retirement employment, we determined that his official actions did not
                          have a "direct and predictable effect" on the financial interests of the
                          contractor. As a result, we concluded that he did not violate applicable
                          statutory or regulatory restrictions concerning a conflict of interest. The


                                                24
Semiannual Report to the Congress                                                                                  Chapter Two




                                                  Program Integrity
                                                Senior Official Inquiries
                                                   Open As of March 31, 2000

                     160
                     140        130
                     120
                     100
                      80
                      60                                                              36
                      40                      17           20                                         32
                      20                                                    0
                       0
                              Army           Navy        USAF         USMC         Defense          OIG
                                                                                   Agencies       Program
                                                                                                  Integrity
                 This graph provides a breakdown of senior
                 official cases by the organization conducting
                 the inquiry. Inquiries completed by other
                 organizations are submitted to the Program            Total Open Cases: 235
                 Integrity Directorate, OIG, DoD, for review.



                                                             Figure 4




                                          Program Integrity
                      Nature of Substantiated Allegations Against Senior Officials
                                         During lst Half FY 00

                              Deceptive
                             Statements                     Other Misconduct                 Abuse of Authority/
                                 6%                               21%                        Misuse of Position
                                                                                                    10%




                                                                                              Sexual Harassment/
                                                                                                  Improper
                                                                                                 Relationship
                                                                                                     10%
                            Misuse of Govt
                              Property/                                 Improper Personnel
                             Resources                                        Action
                                38%                                            15%


                                 Cases Closed: 250                      Substantiated: 30


                                                                 Figure 5



                                                                 25
Chapter Two                                               Semiannual Report to the Congress




                case illustrated the difficulty of applying conflict of interest prohibitions
                in certain situations.

CRIMINAL        The Office of Criminal Investigative Policy and Oversight (CIPO)
INVESTIGATIVE   published the following significant reports during the reporting period.
POLICY AND
OVERSIGHT       Our report, Evaluation of the Criminal Investigative Environment in
                which the Defense Enrollment Eligibility Reporting System Operates,
                evaluated the ability of DoD to prevent, detect and investigate health care
                beneficiary fraud. The report made six recommendations aimed primarily
                at reducing the number of ineligible persons availing themselves of
                military medical benefits and ensuring that upon detection those instances
                were properly recorded, referred to investigators and followed up. The
                report also sought to raise the awareness of the importance of this area of
                potential fraud by recommending greater management controls and
                vigilance.

                In conjunction with the Office of the Assistant Inspector General for
                Auditing, an oversight review of the OIG, Defense Intelligence Agency
                (DIA), was conducted. For this review, CIPO assessed the management
                and effectiveness of the OIG, DIA, investigative program. The CIPO
                made nine specific recommendations to enhance the organization,
                mission, policies, procedures, training and staffing of this investigative
                program.

                In addition to these reports, CIPO prepared and is administering the
                Deputy Secretary of Defense tasking to the Services to accomplish those
                recommendations of the National Academy of Public Administration’s
                report, Adapting Military Sex Crimes Investigations to Changing Times,
                in which DoD concurred. The OIG, DoD, was designated to monitor the
                progress of the completion of these taskings on behalf of the Deputy
                Secretary of Defense.

 Voluntary      The DoD Voluntary Disclosure Program encourages contractors to
 Disclosure     disclose potential criminal or civil fraud that may affect their contractual
 Program        relationship with the DoD or the contractor’s responsibility under Federal
                Acquisition Regulations. The following are examples of voluntary disclo-
                sures that resulted in monetary payments to the Government during this
                reporting period.

                The Aluminum Company of America (ALCOA) agreed to pay $727,000
                in damages and penalties after failing to consistently perform fracture
                toughness testing of extrusions required by contract specifications. In

                                      26
Semiannual Report to the Congress                                                                       Chapter Two




                                             some instances, no testing was done and in other instances,
                                             inadequate testing was conducted on parts used in C-17
                                             aircraft.

                                             Contract specifications required Hughes Aircraft Company
                                             to perform performance and acceptance tests on traveling
                                             wave tubes, components used in radar systems on F-14 and
                                             F-15 aircraft. Such testing was not accomplished on three
                                             different models of the tubes, and investigation also deter-
                                             mi n e d Hu g h e s i n f la t e d l a b o r ho u r s b i l l e d to t h e
                                             Government. A settlement agreement was reached in the
                                             amount of $2,113,000.
              C-17 Aircraft

AUDITING                      The OIG, DoD, and Military Departments’ central audit organizations
                              issued 181 reports during the reporting period, identifying $1.2 billion in
                              quantifiable monetary benefits and addressing a wide spectrum of DoD
                              programs, with emphasis on the high risk areas discussed in Chapter 1.
                              Appendix A lists internal audit reports by major subject area. Appendices
                              B and C list OIG, DoD, reports with potential monetary benefits and
                              summarize internal audit followup activity, respectively.

                              The DCAA continued providing a range of support to DoD contracting
                              officers and questioned $516.1 million in costs, as summarized in
                              Appendix D.

 Climate                      At the request of the Secretary of Defense, the OIG, DoD, assessed the
 Assessment                   environment at 38 installations and on 11 ships regarding the application
                              of the DoD homosexual conduct policy, which is commonly referred to as
                              the “Don’t Ask, Don’t Tell” policy. The Secretary requested that the
                              survey assess the extent to which:

                                    •   Harassment of Service members based on perceived homo-
                                        sexuality may occur.

                                    •   Disparaging speech or expression with respect to sexual orienta-
                                        tion may occur.

                                    •   Such speech or expression may be tolerated.

                              To conduct the assessment, we surveyed nearly 72,000 active duty
                              Service members, using random sampling to choose locations and units.
                              For each selected unit, we administered a questionnaire to all unit


                                                     27
Chapter Two                                                     Semiannual Report to the Congress




                       members. The questionnaires were designed and processed with emphasis
                       on ensuring the anonymity of all respondents. Cooperation by the Defense
                       Manpower Data Center and the Military Departments, especially unit
                       commanders, was excellent.

                                    Regarding the environment at the surveyed locations, 80
“...80 percent of the respondents   percent of the respondents stated they had heard offensive
stated they had heard offensive     sp eech, derogatory names, j ok es or remark s abo ut
speech, derogatory names, jokes     homosexuals in the last 12 months. Eighty-five percent
or remarks about homosexuals        believed such comments were tolerated to some extent.
in the last 12 months.”             Thirty-seven percent of the respondents stated that they had
                                    witnessed or experienced an event or behavior toward a
                       Service member that they considered to be harassment based on perceived
                       homosexuality. About 5 percent believed that harassment based on
                       perceived homosexuality was tolerated by someone in their installation or
                       ship chain of command, and 10 percent believed it was tolerated by other
                       unit members. About 78 percent of the respondents indicated they would
                       feel free to report harassment of perceived homosexuals. Overall, 97
                       percent of the respondents believed they had at least some understanding
                       of the homosexual conduct policy. Approximately 57 percent of the
                       respondents stated they had not had training on the policy. Finally, 50
                       percent of the respondents stated the policy was moderately or very
                       effective at preventing or reducing harassment; 46 percent stated it was
                       slightly or not effective; and 4 percent did not provide a response.

                       In February 2000, the Secretary of Defense approved Military Department
                       training plans intended to emphasize that harassment of Service members
                       for any reason, including perceived sexual orientation, is unacceptable. In
                       addition, in response to the survey results, the Secretary formed a senior-
                       level task force to develop recommendations for further corrective
                       actions. The OIG, DoD, effort was particularly noteworthy in that the
                       entire project, to include the development of the survey instrument, site
                       visits, survey administration, analysis and report issuance was
                       accomplished in a 90-day period as requested by the Secretary.

 Export Licensing      The National Defense Authorization Act for Fiscal Year 2000 required
                       that the Inspectors General of the Departments of Commerce, Defense,
                       Energy and State conduct an annual review of the policies and procedures
                       of the U.S. Government to prevent the export of sensitive technologies
                       and technical information to countries of concern. This year’s review
                       focused on compliance with the “deemed” export licensing requirements
                       contained in Export Administration Regulations and the International
                       Traffic in Arms Regulations. Foreign nationals visit Federal research

                                             28
Semiannual Report to the Congress                                                          Chapter Two




                            facilities for a variety of reasons under various international agreements
                            and programs. During these visits, they may have access to export-con-
                            trolled software or technology. The release to foreign nationals of
                            technical data that meet the criteria of the Export Administration
                            Regulations or the International Traffic in Arms Regulations is considered
                            an export. According to these regulations, the oral, visual or written
                            disclosure of technical data to a foreign national may require a “deemed”
                            export license.

                                                    All of the OIGs reported weaknesses in their
“...DoD research facilities provided
                                                    agencies’ controls. The DoD research facilities did
technical data to very large numbers of
                                                    not have procedures for determining whether a
foreign visitors without determining
                                                    deemed export license was required in conjunction
whether an export license was required.”
                                                    with the disclosure or release of technical data to
                            foreign nationals. In addition, Military Department program officials were
                            not knowledgeable of the term “deemed export” or of the licensing
                            requirements for such exports. As a result, DoD research facilities
                            provided technical data to very large numbers of foreign visitors without
                            determining whether an export license was required. Also, DoD seldom
                            provided proposed data exchange agreement annexes to the Department
                            of Commerce for review. From 1994 through 1999, the Military
                            Departments signed 316 data exchange agreement annexes; however,
                            DoD provided only 48 to the Department of Commerce. As a result, DoD
                            was not necessarily reflecting a U.S. Government consensus position
                            when approving most data exchange agreement annexes. These results
                            were included in an interagency report, a DoD-specific report and a
                            classified report that is summarized in the Classified Annex to this report.

 Auditor                    The Advisory Council on Government Auditing Standards is considering
 Independence               a proposal to adopt the American Institute of Certified Public Accountants
                            definition of auditor independence. Because the Auditors General of the
                            Military Departments are selected by their Department Secretaries and not
                            a legislative body, and are not covered by the Inspector General Act, this
                            change would call into question the ability of the Service audit organi-
                            zations to provide independent opinions on Army, Navy and Air Force
                            financial statements.

                            On February 22, 2000, the Deputy Inspector General, DoD, wrote to the
                            Advisory Council urging that the many measures taken by the Congress,
                            the Military Departments and the OIG, DoD, to assure the independence
                            of the Army, Navy and Air Force audit organizations be recognized. To
                            comply with the massive financial statement audit workload mandated by
                            the Chief Financial Officers Act, the DoD internal audit community

                                                  29
Chapter Two                                                        Semiannual Report to the Congress




“Forcing a diminished role for the        developed a viable and efficient division of labor.
Service auditors...could pose another     The OIG, DoD, provides oversight of Military
significant and unexpected impediment     Department financial audits, and there are no valid
to attaining favorable opinions on        g ro u n ds fo r q ue st i o ni n g t he ob j e c ti v i ty an d
statements.”                              independence of the Military Department auditors, as
                                          demonstrated by the dozens of critical reports and
                      disclaimers of opinion issued by them over the past decade. Forcing a
                      diminished role for the Service auditors, merely to satisfy a questionably
                      necessary standard, could pose another significant and unexpected
                      impediment to attaining favorable opinions on statements.

 OIG, DoD,            The Deputy Inspector General testified on Defense Management Chal-
 Testimony            lenges before the House Budget Committee on February 17, 2000. He
                      identified the main challenge areas confronting the Department as:

                            •   Information Technology Management

                            •   Information Security

                            •   Other Security Concerns

                            •   Financial Management

                            •   Acquisition

                            •   Health Care

                            •   Supply Inventory Management

                            •   Other Infrastructure Issues

                            •   Readiness

                            •   Turbulence from Change

                      On March 16, 2000, the Assistant Inspector General for Auditing testified
                      before the House Subcommittee on Government Management, Informa-
                      tion and Technology regarding Defense acquisition programs. The
                      testimony stressed IG concern about the acquisition workforce and
                      training, contracting for services and spare parts pricing issues.

                      On March 23, 2000, the Deputy Inspector General discussed the National
                      Security Implications of Export Controls and the Export Administration

                                              30
Semiannual Report to the Congress                                                               Chapter Two




                                 Act of 1999, S. 1712, in testimony to the Senate Armed Services Commit-
                                 tee. He reiterated the strong support of the OIG, DoD, for renewal of the
                                 Export Administration Act, but suggested a number of improvements to
                                 S. 1712. The primary suggestions related to procedures for license excep-
                                 tions, the standard for when controls may be imposed, the role of the
                                 Secretary of Defense in decision making on matters such as commodity
                                 classification requests, the interagency appeals process and time limits for
                                 processing license applications.

                                 The full text of the written testimony for these hearings is available at
                                 www.dodig.osd.mil.

INTELLIGENCE                     Figure 6 is a statistical summary of reports issued dealing with
REVIEW                           intelligence oversight. For information regarding specific work
                                 performed, see the Classified Annex to this report.




                                          Intelligence Oversight
                                                                                   Defense
                 Organizations                      OIG, DoD      Military Depts   Agencies        Totals
 Intelligence Programs and Operations

 Operations and Support                                     5             4            12            21
 Financial Management                                       2             1             4             7
 Acquisition and Contract Management                        3             1             2             6
 Computer Management/Information Technology                 5             0             4             9
 Management Oversight                                       1             0             7             8
 Management/Criminal Investigations                         0             2             5             7
 Special Emphasis Area
 Information Assurance                                      0             0             1             1
 Total                                                  16                8            35            59

                                                  Figure 6




                                                       31
Chapter Two                                    Semiannual Report to the Congress




              This page left blank intentionally




                            32
Semiannual Report to the Congress                                                                Appendix A


                          APPENDIX A*
  REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS



    Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports issued
    by the OIG, DoD.

    Copies of reports may be obtained from the appropriate issuing office by calling:

            OIG, DoD                                       Army Audit Agency
            (703) 604-8937                                 (703) 681-9863

            Naval Audit Service                            Air Force Audit Agency
            (202) 433-5737                                 (703) 696-8027




                             Summary of Number of Reports by Issue Area
                               October 1, 1999 through March 31, 2000

                                            OIG, DoD            Military Depts.                Total
   Acquisition Oversight                       16                        9                         25
   Construction and Installation                 2                       4                           6
   Support
   Environment                                   3                       7                         10
   Finance and Accounting                      23                       34                         57
   Health Care                                   2                       2                           4
   Information Technology                      29                        6                         35
   Intelligence                                  0                       1                           1
   Logistics                                     4                      17                         21
   Quality of Life                               2                      15                         17
   International Security                        1                       4                           5
   Total                                       82                       99                        181
   The OIG, DoD, also issued 3 reports on audit oversight reviews (D2000-6-001, D2000-6-002, and D2000-6-003).




*Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).




                                                     A-1
Appendix A                                                             Semiannual Report to the Congress


                                    D-2000-098 Spare Parts and            98064017 Air-to-Air Weapon
ACQUISITION                         Logistics Support Procured on a       System Evaluation Program
PROGRAM AND                         Virtual Prime Vendor Contract         (12/6/99)
                                    (3/8/00)
CONTRACTOR                                                                98064024 Award Fee Manage-
OVERSIGHT                           D-2000-099 Procurement of the
                                                                          ment on Commercial Activity
                                    Propeller Blade Heaters for the
                                                                          Contracts (3/27/00)
                                    C-130 and P-3 Aircraft (3/8/00)
IG, DoD                                                                   99064008 Acquisition of Com-
                                    D-2000-100 Contracts for
00-003 The Air Force Contract                                             mercial Spare Parts (1/24/00)
                                    Professional, Administrative,
Audit Followup System               and Management Support                99064019 Service Contracting
(10/4/99)                           Services (3/10/00)                    Quality Assurance Evaluation
00-019 Procurement Practices                                              Program (1/12/00)
                                    D-2000-102 Military Working
for the Composite Armored           Dog Procurements (3/14/00)
Vehicle and Composite
Affordability Initiative            D-2000-107 Navy Acquisition           CONSTRUCTION
Programs (10/26/99)                 of Air Membrane Dehydrators           AND INSTALLATION
                                    (3/23/00)
D-2000-055 Acquisition                                                    SUPPORT
Management of the Joint Total       D-2000-108 Radioactive
Asset Visibility System             Material Containment Bags
(12/14/99)                          (3/22/00)                             IG, DoD
                                                                          D-2000-064 Defense Base
D-2000-059 Allegations              D-2000-079 Summary of the             Realignment and Closure
Relating to the Security Controls   DoD Process for Developing            Budget Data for Various
on Two Air Force Programs           Quantitative Munitions                Projects Realigned From Kelly
(12/16/99)                          Requirements (2/24/00)                Air Force Base to Lackland Air
                                                                          Force Base, Texas (12/21/99)
D-2000-061 Ballistic Missile        Army Audit Agency
Defense Organization Tech-          AA 00-16 Tank Training                D-2000-074 Budget Data for
nology Selection Process for the    Devices for National Guard            Realignment of Gas Systems
Discriminating Interceptor          Units (11/1/99)                       Test Cells From Kelly Air Force
Technology Program Laser                                                  Base to Hill Air Force Base
Radar (12/17/99)                    AA 00-29 Use of International         (2/10/00)
                                    Merchant Purchase Authoriza-
D-2000-065 Costs Charged to         tion Cards (IMPAC) (11/10/99)         Army Audit Agency
Other Transactions (12/27/99)
                                                                          AA 00-96 Flood Damage
                                    AA 00-28 Use of International
D-2000-075 Administration and                                             Assessment (1/20/00)
                                    Merchant Purchase Authoriza-
Management of the Civil Air         tion Cards (IMPAC) (11/12/99)
Patrol (2/15/00)                                                          AA 00-163 Program Assess-
                                                                          ment and Execution-FY 99
                                    Naval Audit Service
D-2000-088 DoD Acquisition                                                Flood Damage Funds (2/24/00)
Workforce Reduction Trends          N2000-0015 Program Executive
and Impacts (2/29/00)               Office Auditor Project (1/25/00)      Naval Audit Service
                                                                          N2000-0002 Military Construc-
D-2000-092 Acquisition of the       Air Force Audit Agency
                                                                          tion, Navy Projects Proposed for
Minuteman III Propulsion            98064003 Airborne Laser               Fiscal Year 2001 (10/19/99)
Replacement Program (3/1/00)
                                    Program Integrated Product
                                    Team Participation (12/8/99)          Air Force Audit Agency
                                                                          99052009 Infrastructure
                                                                          Reduction (11/19/99)



                                                  A-2
Semiannual Report to the Congress                                                        Appendix A


                                                                     D-2000-081 Inspector General,
ENVIRONMENT                         FINANCE AND                      DoD, Oversight of the Naval
                                    ACCOUNTING                       Audit Service Audit of the FY
                                                                     1999 Department of the Navy
IG, DoD                                                              General Fund Financial
00-012 Hazardous Material           IG, DoD                          Statements (2/14/00)
Management for the F-15             00-011 Compilation of Defense    D-2000-082 Inspector General,
Aircraft Program (10/15/99)         Logistics Agency Cash            DoD, Oversight of the Naval
00-020 Hazardous Waste              Transactions (10/18/99)          Audit Service Audit of the FY
Disposal Costs for the Defense                                       1999 Department of the Navy
                                    00-023 Compilation Of Defense    Working Capital Fund Financial
Logistics Agency (10/26/99)         Reutilization and Marketing      Statements (2/14/00)
00-022 Hazardous Material           Service Operating Results
Management for the Nimitz-          (10/28/99)                       D-2000-083 Inspector General,
Class Nuclear Aircraft Carrier                                       DoD, Oversight of the Air Force
                                    00-027 Automated Systems         Audit Agency Audit of the FY
Program (10/27/99)                  Used to Prepare the Defense      1999 Air Force Working Capital
Army Audit Agency                   Logistics Agency Working         Fund Financial Statements
                                    Capital Fund Financial           (2/14/00)
AA 00-110 Hazardous Waste           Statements (10/28/99)
Disposal Volumes and Costs                                           D-2000-084 Inspector General,
(12/27/99)                          D-2000-030 Recording Obliga-     DoD, Oversight of the Air Force
                                    tions in Official Accounting     Audit Agency Audit of the FY
AA 00-122 Execution of              Records (11/4/99)                1999 Air Force General Fund
Environmental Projects                                               Financial Statements (2/14/00)
(12/30/99)                          D-2000-041 Deficiencies in FY
                                    1998 DoD Financial Statements    D-2000-085 Inspector General,
AA 00-174 Execution of the          and Progress Toward Improved     DoD, Oversight of the Audit of
Installation Restoration Program    Financial Reporting (11/26/99)   the Military Retirement Fund
(2/28/00)                                                            Financial Statements for FY
                                    D-2000-044 Reconciliation of     1999 (2/15/00)
Naval Audit Service                 Differences Reported for
N2000-0012 Replacement/             Checks Issued by the Defense     D-2000-087 Inspector General,
Conversion of Equipment Using       Finance and Accounting Service   DoD, Oversight of the Army
Class 1 Ozone Depleting             Columbus Center Disbursing       Audit Agency Audit of the
Substances at Selected Navy         Stations (11/30/99)              Army’s General Fund Principal
Shore Installations (12/10/99)                                       Financial Statements for Fiscal
                                    D-2000-069 FY 1998               Year 1999 (2/14/00)
N2000-0013 Environmental            Department of Defense Agency-
Cleanup at Hunters Point            Wide Statement of Budgetary      D-2000-090 Inpatient Data
Shipyard, San Francisco, CA         Resources (12/29/99)             Supporting the DoD Military
(12/21/99)                                                           Retirement Health Benefits
                                    D-2000-071 Maintenance and       Liability Estimate (3/1/00)
Air Force Audit Agency              Repair of DoD General and Flag
                                    Officer Quarters (1/27/00)       D-2000-091 Internal Controls
99052015 Air Installation                                            and Compliance With Laws and
Compatible Use Zone Program         D-2000-080 Inspector General,    Regulations for the DoD
Management (11/1/99)                DoD, Oversight of the Army       Agency-Wide Financial
                                    Audit Agency Audit of the FY     Statements for FY 1999
99052016 Affirmative Procure-       1999 Army Working Capital        (2/25/00)
ment Program (11/23/99)             Fund Financial Statement Audit
                                    (2/17/00)




                                                 A-3
Appendix A                                                           Semiannual Report to the Congress


D-2000-093 Inspector General,     AA 00-27 Integrated Logistics         Naval Audit Service
DoD, Oversight of the Army        Analysis Program Efficiency
                                                                        N2000-0005 Department of the
Audit Agency Audit of the FY      (11/8/99)
                                                                        Navy Principal Statements for
1999 U.S. Army Corps of
                                  AA 00-21 Expenditures for             Fiscal Year 1998: Selected Pay-
Engineers, Civil Works
                                  Aviation Fuel (11/16/99)              ments and Collections
Program, Financial Statements
                                                                        (10/29/99)
(2/28/00)
                                  AA 00-63 Army Working
                                  Capital Fund FY 98 Financial          N2000-0008 Auditor General
D-2000-095 Internal Controls
                                  Statements-Inventory                  Opinion: Department of the
and Compliance With Laws and
                                  Allowance Accounts (11/17/99)         Navy Annual Statement of
Regulations for the Defense
                                                                        Assurance for Fiscal Year 1999
Logistics Agency Working
                                  AA 00-168 Army’s General              (11/10/99)
Capital Fund Financial State-
ments for FY 1999 (2/29/00)       Fund Principal Financial
                                  Statements for Fiscal Year            N2000-0014 Department of the
                                  1999-Summary Audit Report             Navy Working Capital Fund
D-2000-097 Accounting
                                  (2/9/00)                              Inventory Records and
Procedures and Controls Over
                                                                        Valuation (12/30/99)
Financial Data Supporting Other
Defense Organizations (3/9/00)    AA 00-177 Army Working
                                  Capital Fund Principal Financial      N2000-0016 Validation of
                                  Statements for Fiscal Year            Selected Work Request
D-2000-103 Internal Controls
                                  1999-Auditor’s Report                 Obligations in the Standard
and Compliance With Laws and
                                  (2/10/00)                             Accounting and Reporting
Regulations for the FY 1999
                                                                        System (1/28/00)
Financial Statements for Other
Defense Organizations-General     AA00-178 Army Working
                                  Capital Fund Principal Financial      N2000-0018 Department of the
Funds (3/16/00)                                                         Navy Principal Statements for
                                  Statements for Fiscal Year
                                  1999-Internal Controls and            Fiscal Year 1999 (2/10/00)
D-2000-104 Controls Over
Obligations at Washington         Compliance With Laws and
                                                                        N2000-0019 Fiscal Year 1999
Headquarters Services (3/22/00)   Regulations (2/17/00)
                                                                        Consolidated Financial State-
                                  AA 00-186 FY 99 Financial             ments of the Department of the
D-2000-078 Reliability of the
                                  Statements (2/18/00)                  Navy Working Capital Fund
Defense Commissary Agency
                                                                        (2/14/00)
Personal Property Database
(2/18/00)                         AA 00-190 Unexpended
                                  Appropriations-Army Working           Air Force Audit Agency
Army Audit Agency                 Capital Fund FY 99 Financial          98053001 Accounting for
                                  Statements (2/28/00)                  Selected Assets and Liabilities-
AA 00-19 Army Working
                                                                        Fund Balance With Treasury,
Capital Fund FY 98 Financial      AA 00-202 Internal Controls           Fiscal Year 1998 (1/6/00)
Statements-Fund Balance With      Over Selected Revenue,
Treasury (10/15/99)               Expense, and Equity Accounts          99052030 United States Air
                                  (3/22/00)                             Force Academy General Officer
AA 00-48 Army Working
                                                                        Quarters (10/26/99)
Capital Fund FY 98 Financial      AA 00-205 Military
Statements-Statement of           Interdepartmental Purchase            98053005 Accounting for
Budgetary Resources (10/29/99)    Requests (3/27/00)                    Fiscal Year 1998 Air Force
                                                                        Liabilities (11/19/99)
AA 00-3 Headquarters, DA          AA 00-218 Internal Controls
Redesign Efficiency (11/4/99)     Over Obligations, Disburse-           98053006 Accounting for Air
                                  ments, Orders Received, and           Force Real Property, Fiscal Year
AA 00-25 Funding for              Collected (3/29/00)                   1998 (12/22/99)
Unmanned Aerial Vehicles
(11/5/99)




                                                A-4
Semiannual Report to the Congress                                                         Appendix A


98054032 Internal Controls          Army Audit Agency                 00-021 Air Force Logistics
Over Purchases of Goods and                                           Year 2000 End-to-End Test
                                    AA 00-160 Military Treatment
Services (2/23/00)                                                    Planning (10/26/99)
                                    Facility Downsizing and Health-
99053002 Opinion on Fiscal          care for Soldiers in Remote       00-025 End-to-End Testing for
Year 1999 Air Force Consoli-        Locations (2/18/00)               Personnel Systems (10/26/99)
dated Financial Statements
                                    AA 00-179 Health Care for DA       00-026 Joint Operation
(2/9/00)
                                    Civilians Stationed Overseas      Planning Year 2000 Issues
99054002 Selected Civilian Pay      (3/3/00)                          (10/27/99)
Entitlements (3/1/00)
                                                                      D-2000-029 Year 2000
99054006 Official Representa-       INFORMATION                       Contingency Planning and
tion Funds (10/15/99)               TECHNOLOGY                        Operational Evaluation
                                                                      Reporting by U.S. Forces Korea
99054008 First and Second           RESOURCES                         (11/1/99)
Destination Transportation
Centrally Managed Allotments                                          D-2000-031 Year 2000 End-to-
(2/10/00)                           IG, DoD                           End Tests for the Military
                                    00-001 Year 2000 Issues           Health System (11/4/99)
99054014 Support Agreement
                                    Within the U.S. Pacific
Reimbursements (10/29/99)                                             D-2000-032 Year 2000 Status
                                    Command’s Area of
                                                                      of the Compliance Monitoring
99054026 Audit Results,             Responsibility: Alaskan
                                                                      and Tracking System (11/5/99)
Selected Aspects of the Air         Command (10/1/99)
Force Reserve Travel System                                           D-2000-033 Army Logistics
                                    00-002 Year 2000 End-to-End
(2/14/00)                                                             Year 2000 End-to-End Test
                                    Testing: Logistics Capstone
                                                                      Planning (11/5/99)
99054028 Memorandum                 Plan (10/1/99)
Report, Controls in the Status of                                     D-2000-035 Procurement
                                    00-004 U.S. European
Funds System (10/20/99)                                               Systems Year 2000 End-to-End
                                    Command Year 2000 Opera-
                                                                      Test (11/9/99)
99068011 Opinion on Fiscal          tional Readiness (10/8/99)
Year 1999 Air Force Working                                           D-2000-036 Defense Logistics
                                    00-006 Defense Disbursing
Capital Fund Financial                                                Agency Logistics Year 2000
                                    Year 2000 End-to-End Testing
Statements (2/9/00)                                                   End-to-End Test Planning
                                    (10/12/99)
                                                                      (11/12/99)
                                    00-007 Defense Transportation
HEALTH CARE                                                           D-2000-040 Navy Logistics
                                    Pay Year 2000 End-to-End
                                                                      Year 2000 End-to-End Test
                                    Testing (10/12/99)
                                                                      Planning (11/16/99)
IG, DoD                             00-015 Year 2000 Higher Level
                                                                      D-2000-042 Year 2000
00-010 Administration and           Testing Schedule Data Reported
                                                                      Operational Contingency
Management of the Armed             to DoD (10/20/99)
                                                                      Planning for Health Care in the
Forces Institute of Pathology                                         European Theater (11/26/99)
                                    00-017 Defense Military Pay
(10/15/99)
                                    Year 2000 End-to-End Testing
                                                                      D-2000-043 Air Force Level I
00-016 TRICARE Marketing            (10/21/99)
                                                                      Logistics Year 2000 End-to-End
(10/21/99)                                                            Test Planning (11/29/99)
                                    00-018 Defense Travel Pay
                                    Year 2000 End-to-End Testing
                                                                      D-2000-046 Year 2000
                                    (10/22/99)
                                                                      Computing Issues Related to
                                                                      Health Care in DoD-Phase III
                                                                      (12/1/99)



                                                 A-5
Appendix A                                                        Semiannual Report to the Congress


D-2000-048 Year 2000              Air Force Audit Agency             AA 00-107 Process for
Compliance Status of Biomedi-                                        Determining Source of Depot
                                  99066013 Certification and
cal Devices Included in Navy                                         Level Maintenance (1/3/00)
                                  Accreditation of Pacific Air
Fleet Hospitals (12/3/99)
                                  Forces Information Systems         AA 00-111 Process for
D-2000-049 DoD Year 2000          (3/1/00)                           Determining Source of Depot
Contingency Plans (12/10/99)                                         Level Maintenance (1/20/00)
                                  99066019 Information
D-2000-057 Summary of DoD         Protection - Implementing          AA 00-131 Demilitarization of
Year 2000 Issues IV (12/16/99)    Controls Over Known                Conventional Ammunition
                                  Vulnerabilities in Air Force       (2/4/00)
D-2000-058 Identification and     Materiel Command Computers
Authentication Policy             (FOR OFFICIAL USE ONLY)            AA 00-153 Material Weakness
(12/20/99)                        (3/2/00)                           Plan for the Manpower Require-
                                                                     ments Determination System
D-2000-060 Year 2000                                                 (2/15/00)
Contingency Plans for Personnel   INTELLIGENCE
Systems (12/16/99)                                                   AA 00-185 Integrated Sustain-
                                                                     ment Maintenance Program
D-2000-063 Information Tech-      See Appendix in Classified
                                                                     (3/8/00)
nology Funding in the Depart-     Annex to this report.
ment of Defense (12/17/99)                                           AA 00-199 Contracting for
                                                                     Field-Level Maintenance of
D-2000-066 Communication          LOGISTICS                          Tactical Equipment (3/14/00)
Systems Year 2000 End-to-End
Tests (12/23/99)                                                     AA 00-147 Manpower Require-
                                  IG, DoD                            ments Criteria-Maintenance and
D-2000-068 Year 2000 Conver-                                         Support Personnel (3/22/00)
                                  D-2000-050 Disposal of
sion Program for Defense
                                  Munitions Items at Fort Irwin
Critical Suppliers (12/28/99)                                        Navy Audit Service
                                  (12/8/99)
Army Audit Agency                                                    N2000-0001 Management of
                                  D-2000-054 Cash Impact of the      Advanced Equipment Repair
AA 00-1 Information               Consumable Item Transfer, FY       Program and Trident Planned
Assurance-Phase III: Funding      1999 (12/14/99)                    Equipment Replacement
and Performance Measures                                             Program (10/12/99)
(12/14/99)                        D-2000-056 DoD Electronic
                                  Mall Implementation Planning       N2000-0003 Energy Conserva-
AA 00-116 Installation            (12/15/99)                         tion at the Naval Air Station,
Telecommunications Switches                                          Patuxent River, MD (10/19/99)
(1/20/00)                         D-2000-086 Assuring
                                  Condition and Inventory            N2000-0006 Marine Corps
AA 00-214 Summary of Year         Accountability of Chemical         Retail Supply Management of
2000 Audit Coverage-Lessons       Protective Suits (2/25/00)         Material Returns (12/29/99)
Learned (3/31/00)
                                  Army Audit Agency                  N2000-0007 Recording Onhand
Navy Audit Service                                                   Quantities of Aviation Depot
                                  AA 00-4 Repair of Secondary
N2000-0017 Management of          Items (10/29/99)                   Level Repairable Inventories at
Long-Haul Telecommunications                                         Commercial Contractor Repair
Circuits in the San Diego, CA     AA 00-76 Process for               Facilities (10/29/99)
Region (1/31/00)                  Determining Source of Depot
                                  Level Maintenance (12/14/99)       Air Force Audit Agency
                                                                     99061005 F110-GE-100 Spare
                                  AA 00-77 Process for               Engine and Upgrade Require-
                                  Determining Source of Depot        ments (1/12/00)
                                  Level Maintenance (12/14/99)


                                                A-6
Semiannual Report to the Congress                                                          Appendix A


99061026 Followup Audit,            Naval Audit Service               Army Audit Agency
Noncataloged Depot Item
                                    N2000-0009 Combined               AA 00-33 Technology Trans-
Management (11/2/99)
                                    Bachelor Quarters Operations at   fers for Classified and Sensitive
99062015 Aircraft External          the Naval Air Station, Patuxent   Information (12/20/99)
Fuel Tank Build-Up Program          River, MD (11/16/99)
                                                                      AA 00-141 Technology
(12/15/99)
                                    N2000-0004 Funding and            Transfers in Special Programs
                                    Requirements Determination for    (1/18/00)
                                    Temporary Duty Under Instruc-
QUALITY OF LIFE                     tion as Related to Permanent      AA 00-32 Army Foreign
                                    Change of Station Moves           Language Program Require-
                                    (10/19/99)                        ments (2/14/00)
IG, DoD
D-2000-076 Allegations on the       N2000-0010 Naval Reserve          Air Force Audit Agency
Air Force Promotion Process for     Headquarters Staffs (11/18/99)    99062008 Reduced-Price
Officers Working on Special                                           Foreign Military Sales and
Access Programs (2/16/00)           N2000-0011 Marine Corps
                                                                      Related Grant Transactions
                                    Recruiting Functions (12/1/99)
                                                                      (3/28/00)
D-2000-101 Report on the
Military Environment With           Air Force Audit Agency
Respect to the Homosexual           99058013 Bare Base Set
Conduct Policy (3/16/00)
                                                                      AUDIT OVERSIGHT
                                    Requirements (U)
                                    (CLASSIFIED) (1/4/00)             REVIEWS
Army Audit Agency
AA 00-18 Barnes Post                98051020 Base Capital
                                    Improvement Fund Use              IG, DoD
Restaurant Fund (10/29/99)
                                    (12/20/99)                        D-2000-6-001 Pricewaterhouse
AA 00-30 Billeting Financial                                          Coopers L.L.P., and the Defense
Operations (11/4/99)                99051007 Safety of Life in        Contract Audit Agency
                                    Confined Spaces (2/28/00)         California Institute of Tech-
AA 00-31 Financial Controls                                           nology, Fiscal Year Ended
Over Morale, Welfare and            99051026 Ground Safety
                                    Program Costs (3/14/00)           September 30, 1996 (11/19/99)
Recreation Activities (11/4/99)
                                    99051033 Air National Guard       D-2000-6-002 Pricewaterhouse
AA 00-68 Reengineering                                                Coopers L.L.P., and the Defense
Overhead Support for Morale,        Safety of Life in Confined
                                    Spaces (3/2/00)                   Contract Audit Agency
Welfare and Recreation                                                California Institute of
Activities (11/30/99)                                                 Technology, Fiscal Year Ended
                                                                      September 30, 1999 (11/19/99)
AA 00-130 Army Executive            INTERNATIONAL
Dining Facility Fund Financial      SECURITY                          D-2000-6-003 Office of the
Statements (1/4/00)                                                   Inspector General, Defense
                                                                      Intelligence Agency (2/14/00)
AA 00-53 Secretary of Defense       IG, DoD
Mess Fund Financial Statements
(1/6/00)                            D-2000-110 Export Licensing
                                    at DoD Research Facilities
                                    (3/24/00)




                                                  A-7
Appendix A                                        Semiannual Report to the Congress




   Our report on the status of OIG, DoD, reports over 12 months old in
   which management decisions have been made but final action has not
   been taken has been provided to the Department and is available upon
   request.




                                    A-8
Semiannual Report to the Congress                                                              Appendix B


                              APPENDIX B*
         INSPECTOR GENERAL, DoD, AUDIT REPORTS ISSUED CONTAINING
               QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                       Potential Monetary Benefits

                                                                      Disallowed        Funds Put to
                  Audit Reports Issued                                  Costs1           Better Use

D-2000-023 Compilation of Defense Reutilization and                        N/A          $529,600,000
Marketing Service Operating Results (10/28/99)
D-2000-098 Spare Parts and Logistics Support Procured                      N/A            29,400,000
on a Virtual Prime Vendor Contract (3/8/00)
D-2000-099 Procurement of the Propeller Blade Headers                      N/A             5,600,000
for the C-130 and P-3 Aircraft (3/8/00)
Totals                                                                          0       $564,600,000
1
There were no OIG audit reports during the period involving disallowed costs.


*Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6).




                                                        B-1
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                                    B-2
Semiannual Report to the Congress                                                                    Appendix C



                                              APPENDIX C*
                                          FOLLOWUP ACTIVITIES




          DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
             RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                                  ($ in thousands)

                                                     Number Funds  Put to
                           Status                             Better Use
A.      For which no management decision had been made by the                                30      $33,300
        beginning of the reporting period.
B.      Which were issued during the reporting period.                                     110       564,600
        Subtotals (A+B)                                                                    140       597,900
C.      For which a management decision was made during the reporting                      109        25,400
        period.
          (i)   dollar value of recommendations that were agreed to by
                management
                  - based on proposed management action                                                4,200
                  - based on proposed legislative action                                               4,200
          (ii) dollar value of recommendations that were not agreed to by
                management                                                                            21,200
D.      For which no management decision has been made by the end of the                     31      572,500
        reporting period.

       Reports for which no management decision was made within 6
                                                                                                 6     7,900
       months of issue (as of March 31, 2000).2
1There
           were no OIG audit reports during the period involving questioned costs.
2
     OIG Report No. 99-064, “Basis for Recent Policy Changes to the Drug Testing Rate for DoD Civilians,”
    issued December 31, 1998; OIG Report No. 99-102, “Chemical and Biological Warfare Defense Resources
    in the U.S. European Command,” issued March 4, 1999; OIG Report No. 99-106, “Commercial Life Insurance
    Sales Procedures in DoD,” issued March 10, 1999; and OIG Report No. 99-135, “Trends and Progress in
    Reducing Problem Disbursements and In-Transit Disbursements,” issued April 16, 1999, had no management
    decisions made within 6 months of issuance and mediation is ongoing. OIG Report No. 99-166, “Initial
    Implementation of the Standard Procurement System,” was issued May 26, 1999, and decided April 7, 2000.
    Navy Audit Service Report No. 052-98, “Department of the Navy Principal Statements for Fiscal Years 1997
    and 1996: Fund Balance,” was issued September 30, 1998, and was decided April 26, 2000.




    *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).




                                                          C-1
Appendix C                                                                  Semiannual Report to the Congress




                    STATUS OF ACTION ON CENTRAL INTERNAL AUDITS1
                                        ($ in thousands)
                                                         Number of Funds Put to
                       Status of Action                   Reports   Better Use
   OIG, DoD
   Action in Progress - Beginning of Period                                          308                $13,379
   Action Initiated - During Period                                                  109                  4,200
   Action Completed - During Period                                                  131                  6,009
   Action in Progress - End of Period 2                                              286                  7,810
   Military Departments
   Action in Progress - Beginning of Period                                          360              4,740,789
   Action Initiated - During Period                                                  133                271,644
   Action Completed - During Period                                                   86                279,429
   Action in Progress - End of Period                                                407              4,475,732
   1There
          were no audit reports during the period involving questioned costs.
   2
    On certain reports (primarily from prior periods) with audit estimated monetary benefits of $379 million, it
    has been agreed that the resulting monetary benefits can only be estimated after completion of management
    action, which is ongoing.




                                                       C-2
Semiannual Report to the Congress                                                                     Appendix D


                                       APPENDIX D
                              CONTRACT AUDIT REPORTS ISSUED*
                                       ($ in millions)



                                                                               Audit            Funds Put to
       Type of Audit            Reports Issued           Examined            Exceptions          Better Use
 Incurred Costs1                          9,700              $37,943.3            $439.7                $119.8
 Forward Pricing Proposals                4,188               34,179.3                --               1,992.2
 Cost Accounting                          1,017                  319.3              73.5                    --
 Standards
 Defective Pricing2                        218                      --               2.9                    --
 Other3                                      1                      --                --                    --
 Totals                                 15,124               $72,441.9            $516.1              $2,112.0
 1Incurred
           cost funds put to better use are from the cost avoidance recommended in economy and efficiency
  audits of contractor operations.
 2Defective pricing dollars examined are not reported because they are considered a duplication of forward

  pricing dollars reported as examined.
 3Relates to suspected irregular conduct cases.



*Because of limited time between availability of management information system data and legislative reporting
 requirements, there is minimal opportunity for the DCAA to verify the accuracy of reported data. Accordingly,
 submitted data is subject to change based on subsequent DCAA authentication.




                       Waivers of Advisory and Assistance Service Contracts
        A review is made of each waiver of advisory and assistance services contracts
        granted by the Department. This review is required by Section 802, Defense
        Authorization Act for Fiscal Year 1990.

        The Department made no waivers during the period and therefore, no reviews were
        made by the OIG.




                                                       D-1
Appendix D                                        Semiannual Report to the Congress




             This page left blank intentionally




                            D-2
